<html>
<title> - MOTORCOACH SAFETY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                           MOTORCOACH SAFETY

=======================================================================

                                (110-19)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2007
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-790 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)


            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                        PETER A. DeFAZIO, Oregon

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
JUANITA MILLENDER-McDONALD,          THOMAS E. PETRI, Wisconsin
California                           HOWARD COBLE, North Carolina
ELLEN O. TAUSCHER, California        RICHARD H. BAKER, Louisiana
TIM HOLDEN, Pennsylvania             GARY G. MILLER, California
MICHAEL E. CAPUANO, Massachusetts    ROBIN HAYES, North Carolina
JULIA CARSON, Indiana                HENRY E. BROWN, Jr., South 
TIMOTHY H. BISHOP, New York          Carolina
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
BRIAN HIGGINS, New York              TODD RUSSELL PLATTS, Pennsylvania
GRACE F. NAPOLITANO, California      JOHN BOOZMAN, Arkansas
MAZIE K. HIRONO, Hawaii              SHELLEY MOORE CAPITO, West 
JASON ALTMIRE, Pennsylvania          Virginia
TIMOTHY J. WALZ, Minnesota           JIM GERLACH, Pennsylvania
HEATH SHULER, North Carolina         MARIO DIAZ-BALART, Florida
MICHAEL A ARCURI, New York           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  TED POE, Texas
JERRY MCNERNEY, California           DAVID G. REICHERT, Washington
BOB FILNER, California               CHARLES W. BOUSTANY, Jr., 
ELIJAH E. CUMMINGS, Maryland         Louisiana
BRIAN BAIRD, Washington              JEAN SCHMIDT, Ohio
DANIEL LIPINSKI, Illinois            CANDICE S. MILLER, Michigan
DORIS O. MATSUI, California          THELMA D. DRAKE, Virginia
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
ZACHARY T. SPACE, Ohio               VERN BUCHANAN, Florida
BRUCE L. BRALEY, Iowa                JOHN L. MICA, Florida
HARRY E. MITCHELL, Arizona             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Crean, Chris, Director of Safety and Security, Peter Pan Bus 
  Lines..........................................................    27
Gillan, Jacqueline S., Vice President, Advocates for Highway and 
  Auto Safety....................................................    32
Hamilton, Bruce, President/Business Agent, Amalgamated Transit 
  Union National Local 1700......................................    30
Hill, John H., Administrator, Federal Motor Carrier Safety 
  Administration.................................................     3
Rosenker, Mark V., Chairman, National Transportation Safety Board     5
Scott, Brian, President, Escot Bus Lines.........................    28

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    42
Mitchell, Hon. Harry E., of Arizona..............................    43
Rahall, Hon. Nick J., of West Virginia...........................    46

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Crean, Christopher M.............................................    47
Gillan, Jacqueline S.............................................    53
Hamilton, Bruce..................................................    77
Hill, John.......................................................    88
Rosenker, Mark V.................................................    98
Scott, Brian L...................................................   107

                       SUBMISSIONS FOR THE RECORD

Hill, John H., Administrator, Federal Motor Carrier Safety 
  Administration, Responses to questions from the Subcommittee...    94

                         ADDITION TO THE RECORD

Red Chamber Company, Rick Martin, Executive Director, letter to 
  Rep. Napolitano................................................   113
[GRAPHIC] [TIFF OMITTED] 34790.001

[GRAPHIC] [TIFF OMITTED] 34790.002

[GRAPHIC] [TIFF OMITTED] 34790.003

[GRAPHIC] [TIFF OMITTED] 34790.004

[GRAPHIC] [TIFF OMITTED] 34790.005

[GRAPHIC] [TIFF OMITTED] 34790.006



                      HEARING ON MOTORCOACH SAFETY

                              ----------                              


                        Tuesday, March 20, 2007,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
room 2167, Rayburn House Office Building, the Honorable Peter 
DeFazio [chairman of the subcommittee] presiding.
    Mr. DeFazio. The Subcommittee will come to order. Today, we 
are going to consider issues relating to motorcoach safety.
    I appreciate the witnesses being here. One of the 
witnesses, the Chairman of the NTSB, has a fairly short time 
line. We know that Mr. Hill is very generous with his time, as 
he was last week, but we will try and not keep either of you 
too long, and meet your schedules. We do appreciate your being 
here.
    Late last year, the Committee held a hearing on the issue 
of curbside service, and a number of issues relating to safety 
of the traveling public came up. Some of that, I believe, I 
know is addressed in some of the testimony here today. I still 
consider that to be an evolving issue that merits more 
attention by this Committee. We will be discussing that.
    Motorcoach travel is quite safe when compared to other 
modes, but even one avoidable death is too many. I believe that 
there are improvements in the system that can be made that 
could avoid unnecessary death. We are going to have some 
testimony here about Wilmer, Texas, and that horrible, horrible 
tragedy there; and also some testimony regarding the Atlanta, 
Georgia crash earlier this month.
    The NTSB has a number of recommendations relating to motor 
carrier and motorcoach safety that have not been accepted by or 
fully addressed by the administrative agency, and we will want 
to discuss the reasons for that and whether or not some of 
their proposals should be implemented in the near future.
    We also will have some discussion of the FMCSA's oversight, 
which relates back to a couple of these tragedies, and is an 
ongoing issue, also relating back to the curbside service which 
I mentioned earlier.
    So there is a lot of material to cover. I look forward to 
your testimony.
    With that, I would recognize the Ranking Member for his 
opening remarks.
    Mr. Duncan. Thank you very much, Mr. Chairman, for holding 
the hearing today. Motorcoach safety is an issue which is often 
overlooked until there is a serious accident and lives are 
lost, like the very tragic, very sad bus accident two weeks ago 
in Atlanta and other accidents.
    It is an amazing statistic that unfortunately more people 
are killed in three and a half or four months on the Nation's 
highways than have been killed in all U.S. aviation accidents 
combined since the Wright Brothers' flight in 1903. But that 
points up the really serious challenge that we face in this 
area of highway safety.
    Today, we will hear from witnesses who believe the 
Government's regulatory oversight of buses is adequate, and 
they safely transport people on our roads. Other witnesses 
believe the regulations are not stringent enough and the 
Federal Government does not provide sufficient enforcement of 
these safety regulations. They would like more regulations 
imposed on the bus industry possibly even requiring seat belt 
use on buses.
    In my opinion, safety should be the top priority for 
motorcoach operators. It certainly is the top priority for this 
Subcommittee. Intercity and charter buses transport up to 57 
people in a single bus. Moving that many people is a huge 
responsibility and should be taken very seriously. But 93 
percent of the motorcoach industry is comprised of small 
companies. These are Mom and Pop businesses and they only 
operate a few buses. They have extremely high operating costs 
to run the businesses.
    When I was in law practice, I represented a bus company 
that operated three buses. All three of their drivers had 
driven well over one million miles each without any accident. 
In fact, I think they were really close to five million or ten 
million miles without any accidents.
    I am concerned about imposing unnecessary burdens which may 
not have a safety impact on these small businesses. These small 
businesses are the backbone of the entire motorcoach industry. 
I believe we need to find a balance here for ensuring the 
safety of motorcoaches, while not overwhelming these companies.
    Small business supports the U.S. economy. It is imperative 
to keep these companies in mind when we consider additional 
safety regulations. It is irresponsible to create more 
regulations simply for the appearance of safety. The big guys, 
the big companies can handle the costs of additional 
regulations, but small businesses sometimes can be put out of 
business just by a small increase in operating costs.
    I am confident that the motorcoach industry can remain safe 
without additional regulations if the Government does its job 
properly.
    Again, let me reiterate that the safety of people traveling 
on buses and the safety of the drivers sharing the road with 
these buses should be our top priority. But we need to make 
sure that any additional regulations that are adopted actually 
really do improve safety, as opposed to only imposing 
additional burdens on these small businesses.
    Thank you, Mr. Chairman, again for holding this hearing. It 
is a very important topic, and I look forward to hearing the 
testimony from our two panels.
    Mr. DeFazio. Okay, with that, we will move forward to our 
witnesses in the order in which they are listed. So that would 
be, first, Administrator Hill.

TESTIMONY OF JOHN H. HILL, ADMINISTRATOR, FEDERAL MOTOR CARRIER 
                     SAFETY ADMINISTRATION

    Mr. Hill. Thank you, Chairman DeFazio, Ranking Member 
Duncan, and members of the Subcommittee. Thank you for inviting 
me to discuss the Federal Motor Carrier Safety Administration's 
safety oversight role in motorcoach operations.
    Mr. Chairman, FMCSA was conceived out of the need to 
achieve stronger commercial motor vehicle safety. It is our 
mandate. More than that, the agency consists of dedicated 
professionals to whom highway safety is the highest priority.
    Motorcoaches are one of the safest forms of commercial 
passenger transportation, as you indicated, Mr. Chairman. When 
such vehicles are involved in crashes, however, the potential 
for catastrophic loss of life and injury is significant. We saw 
that as indicated in your comments today in the tragic crash on 
March 2.
    However, compliant or not, it is our agency's 
responsibility to implement programs to implement the safety of 
motorcoach transportation. To that end, FMCSA has established a 
National Motorcoach Safety Program that emphasizes six areas: 
one, increasing the number of motorcoach compliance reviews; 
secondly, ensuring motorcoach companies have a higher priority 
within our compliance review prioritization system known as 
SafeStat; third, establishing formal motorcoach inspections 
within all States; four, improving the collection and analysis 
of safety data; five, reducing motorcoach fires; and six, 
expediting safety audits of new entrant passenger carriers.
    Addressing each of these areas is essential to improving 
passenger vehicle safety. FMCSA is focusing on motorcoach 
safety and the compliance review numbers bear this out. In 
fiscal years 2005 and 2006, FMCSA and the State police and law 
enforcement agencies exceeded our compliance review goals 
established in our performance budget by over 30 percent.
    Augmenting these efforts, FMCSA has established a national 
initiative to address unrated and high priority motorcoach 
operations. This project is expanding our agency's contact with 
motorcoach operators who have old safety ratings, no 
established safety rating, or appear to run unsafely. We expect 
to complete a compliance review and assess the safety rating 
for every unrated motorcoach carrier. We anticipate this to be 
about 1,600 by the end of the year.
    We believe that bus companies deserve careful program 
attention and dedicated enforcement resources. Therefore, we 
will apply more stringent safety standards for passenger 
carriers through a reform of our risk pointer system known as 
SafeStat.
    FMCSA has also been stressing motorcoach safety as part of 
the Motor Carrier Safety Assistance Program. Since 2004, our 
State and local law enforcement have initiated a series of 
motorcoach inspection and compliance review strike force 
activities to increase compliance with passenger safety.
    The most recent inspection strike force was conducted 
during November, 2006, and included 14 States from Maine to 
Virginia. Thanks to the 22 State and local police agencies that 
joined our staff in the activity, in just two weeks we did more 
than 1,300 safety inspections that were conducted on passenger 
vehicles and drivers.
    As a result of strike force's like this, FMCSA and our 
State partners conducted more than 26,000 bus inspections in 
fiscal year 2006, which is a 103 percent increase over the 
previous fiscal year.
    The use of safety data is critical to target our resources. 
In the past three years, there has been significant improvement 
in the timeliness and quality of safety data. This is due in 
part to the increased numbers of compliance reviews and 
inspections, as I have described.
    FMCSA is also conducting a Bus Crash Causation Study to 
determine the reasons for and the factors contributing to 
serious bus crashes. The data collection for this study will be 
completed this May and the final report is due in December of 
2007.
    Another critical aspect of our safety program relates to 
the problem of motorcoach fires. It is vital that we gather and 
evaluate information on the causes, frequency, and severity of 
bus and motorcoach fires and analyze the bus fire data to 
measure the effectiveness of bus fire prevention.
    To improve the collection and analysis of bus fire data, 
the FMCSA recently issued a statement to FMCSA field offices 
and our MCSAP partners reemphasizing that fires occurring in 
commercial vehicles, including buses, are crashes and must be 
reported to FMCSA. We are also working with the National 
Highway Traffic Safety Administration to capture bus fire 
information they receive through their monitoring systems.
    Each year, approximately 900 new motor carriers enter the 
passenger arena. FMCSA has implemented a new entrant program 
placing greater priority on safety of passenger carriers. New 
entrant passenger carriers are now subject to an on site safety 
audit within nine months of beginning operations.
    Since the Motor Carrier Safety Improvement Act of 1999, 
when FMCSA was created as an independent agency, the motor 
carrier population has increased steadily, with expected 
doubling of freight volumes by 2020. While independent 
assessments have concluded that our compliance and enforcement 
programs are effective, FMCSA's compliance review program is 
resource-intensive and reaches only a small percentage of motor 
carriers.
    So to improve our outreach into motor carriers, FMCSA has 
developed an improved safety oversight process called the 
Comprehensive Safety Analysis 2010, or CSA 2010. The goal is to 
develop and implement more effective and efficient ways for 
FMCSA and its State partners to reduce commercial motor vehicle 
crashes, fatalities and injuries.
    In concluding, whether it be a college student boarding a 
Greyhound bus for a summer cross-country trip, a senior 
citizens group traveling by charter bus to see the Grand 
Canyon, or a class trip to Washington, D.C., it is our duty to 
ensure our passenger carriers provide safe transportation.
    Mr. Chairman, FMCSA is firmly committed to increasing 
safety for our Nation's traveling public. I know that thousands 
of State and local law enforcement officers in your Districts 
are also dedicated to improving highway safety.
    Thank you for giving me the opportunity to outline the work 
FMCSA is doing. I commend you, Mr. Chairman, for demonstrating 
strong safety oversight of the transportation of our Country's 
bus passengers, and I am happy to answer your questions.
    Mr. DeFazio. Thank you, Administrator Hill.
    Chairman Rosenker, you are recognized. You may give your 
prepared remarks. You may respond to statements made by the 
Administrator, and we can certainly get into things in 
questions.
    Thank you. Go ahead.

       TESTIMONY OF MARK V. ROSENKER, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Rosenker. Thank you, Mr. Chairman. I have submitted a 
formal statement for the record, with your permission, sir.
    Good morning, Chairman DeFazio, Ranking Member Duncan and 
members of the Subcommittee.
    Mr. Chairman, I would like to take this opportunity to 
thank you and the distinguished members of the Subcommittee and 
the staff for inviting the Safety Board to testify today on the 
topic of motorcoach safety, and for your continued interest in 
furthering the safety of our Nation's highways.
    As you know, the Safety Board is charged with investigating 
major transportation accidents, including highway accidents, 
determining their probable cause, and making recommendations to 
prevent similar accidents from happening again. Changes in 
highway or vehicle design, driver training, occupant 
protection, and regulatory oversight are frequently 
recommended.
    Today, I would like to discuss specifically motorcoach 
safety. As you know, intercity motorcoach travel, as you said, 
is one of the safest modes of transportation, with fewer than 
17 fatalities in an average year. It is also one of the most 
popular forms of travel, transporting more passengers than 
either commercial air or rail travel.
    However, in 2005, 33 persons riding in motorcoaches 
received fatal injuries. This is the highest number of onboard 
fatalities in at least 15 years. Unfortunately, one of the 
accidents I will discuss today, although extremely unique, made 
the largest contribution to the number.
    The issues that I would like to highlight include 
motorcoach crashworthiness, motorcoach fires, and motorcoach 
maintenance and oversight by the FMCSA.
    The Safety Board has long been concerned about the safety 
of those who ride motorcoaches. Quite frankly, people have a 
right to expect the highest level of safety when they pay for a 
ticket and place their safety in the hands of a motorcoach 
operator. One of the reasons motorcoach operations are so safe 
is because they usually provide a reasonable level of occupant 
protection when accidents occur. Unfortunately, the occupant 
protection provided in motorcoaches does not work well in all 
accident scenarios.
    For example, we recently launched to the scene of a 
motorcoach accident in Atlanta that involved a baseball team 
from Boston University in Ohio. Although this accident occurred 
only 18 days ago, we know from past experience that one of the 
major issues is likely to be the crashworthiness of the 
motorcoach. In this accident, seven people died. But perhaps 
more importantly, some of the occupants were ejected or 
partially ejected from the vehicle.
    As you know, the motorcoaches use a form of passive 
occupant protection called ``compartmentalization,'' which 
protects passengers much the same way an egg crate protects 
eggs. However, the Board has found that compartmentalization 
does not work in all crash scenarios.
    Therefore, as a result of two exhaustive studies the Board 
did in 1999, we made six recommendations to NHTSA to improve 
motorcoach crashworthiness in four primary areas: first, 
develop standards for motorcoach occupant protection systems 
that protect passengers in frontal, side, and rear impacts, as 
well as rollovers; second, revise window glazing requirements 
to prevent occupant ejection through windows; third, require 
the emergency window emergency window exits to be opened easily 
and that they remain open during an emergency evacuation; and 
fourth, make motorcoach roofs stronger.
    The next motorcoach safety issue I would like to discuss is 
that of motorcoach fires. On September 23, 2005, near Dallas, 
Texas, a fire engulfed a motorcoach carrying elderly evacuees 
away from the predicted path of Hurricane Rita. Twenty three of 
the 44 passengers were unable to escape the blaze and perished. 
This motorcoach fire shows the potential for catastrophe when 
passengers are unable to exit a burning motorcoach quickly.
    As a result of its investigation, the Board made the 
following recommendations to NHTSA: require enhanced fire 
protection of fuel systems and use fire-hardened materials to 
limit the spread of fires that do occur; develop detection 
systems that provide an early warning to drivers of a potential 
fire so that passengers might have time to escape; and finally 
to establish acceptable egress times for motorcoaches.
    Finally, I would like to talk about the oversight of the 
motorcoach industry by the Federal Motor Carrier Safety 
Administration. The Safety Board determined that the cause of 
the fatal bus fire near Dallas was insufficient lubrication in 
the wheel-bearing assembly of the motorcoach, which eventually 
led to the ignition of the tire and the catastrophic fire. This 
occurred because the motorcoach operator, Global Limo 
Incorporated, failed to detect this lack of lubrication and 
FMCSA failed to provide effective oversight of the motor 
carrier through its compliance review process.
    As a result, the Board reiterated its longstanding 
recommendation to FMCSA to elevate the importance of driver and 
vehicle violations in evaluating the safety fitness of motor 
carriers and take more unfit carriers off the road.
    Mr. Chairman, I know you share my desire to improve 
motorcoach safety, and I hope this information will assist you 
in accomplishing that goal.
    This completes my oral statement and I would be happy to 
respond to any questions.
    Mr. DeFazio. Thank you.
    We will proceed now with the first round of questions.
    Administrator Hill, you have heard Chairman Rosenker, 
particularly about the Wilmer crash. It wasn't a crash, but a 
fatal accident with the bus catching fire. How is it that, and 
the words are extraordinary, not just the Chairman, but other 
members of the NTSB used regarding the persistent, long-term 
violations by Global Limo. The word ``appalling,'' among 
others, was used. Yet somehow, this company had been given a 
satisfactory rating by FMCSA. Have you looked at that? Do you 
understand how they could have been given a satisfactory 
rating, despite their persistent, long-term deficiencies in 
maintenance?
    Since you did find deficiencies, but allowed them to 
continue to operate, why wasn't there a follow up?
    Mr. Hill. Mr. Chairman, the tragedy that we are talking 
about here was awful. I wish that I could tell you a different 
story, but the satisfactory safety rating is something that 
happens in a snapshot in time. At the time that we went in and 
looked at it, they had the safety protocols in place, but there 
was obviously a denigration of that safety focus after we were 
in there.
    I agree with you that the safety rating, and with the NTSB, 
that the safety rating process needs to be addressed. We have 
undertaken steps to do that, and we are working through the 
comprehensive Safety Analysis 2010 to do so. We are planning on 
pilot testing this next year. We are starting rulemaking 
processes this year on developing this, to change the safety 
fitness process. I am committing to this Committee and to the 
Board that we are going to follow through on this initiative.
    Mr. DeFazio. Chairman Rosenker, would you respond to that? 
I thought that NTSB found that this was not something that had 
just recently occurred, but it was more persistent and endemic. 
How could it have escaped the notice of the FMCSA? Didn't the 
FMCSA find some deficiencies at the time of the original 
evaluation?
    Mr. Rosenker. They did, Mr. Chairman. They found seven. But 
the way that the system works, it doesn't necessarily look at 
the kinds of things that the NTSB believes should be focused 
upon. That is, the condition of the vehicle itself and also the 
driver, the capability of the driver, the training of the 
driver, the status of the driver, the medical condition of the 
driver.
    Those are the things that we have found in our history of 
examining motorcoach accidents that have been the primary 
problems and the cause of terrible tragic accidents.
    Mr. DeFazio. Do their 2010 changes give you some level of 
confidence that they will better address those? They seem to me 
pretty simple and focused, as opposed to bureaucratic 
evaluations. Is the bus safe? Is the driver safe? Pretty simple 
stuff, right? Does their new iteration of their safety 
inspection program get more at those root issues?
    Mr. Rosenker. This appears to be a comprehensive 
examination of their processes and how they are going to 
improve it. I am hopful. I am an optimist, but I can't tell you 
what is going to happen in three years, and who may administer 
that program when it finally does come to pass.
    Mr. DeFazio. Administrator Hill, you have heard the 
condition of the vehicle itself and the driver. Do you feel 
that you are going to better address what seemed to be, what 
most Americans would think, are the two most important and 
fairly simple to evaluate issues for their traveling safety? It 
is amazing to me that the old system, or the existing system, 
has been so deficient in these areas. How is that going to be 
addressed with the new system?
    Mr. Hill. Mr. Chairman, I would say to you that there have 
been some independent evaluations of the compliance review 
process, and it has been found to be successful at addressing 
high-risk carriers. One of the challenges that we have as an 
agency is dealing with the volume of vehicles that are 
involved. When we go out and do a compliance review, our staff 
does, or the State enforcement person goes out, they are 
looking at a variety of the processes that we think roll into 
safety fitness evaluation, everything from drug and alcohol 
testing, the driver's piece to that, the medical piece; whether 
or not they are complying with hours of service. That process, 
depending on the size of the carrier, can take a considerable 
amount of time, or if it is a small carrier with one truck, it 
is a one or two day process.
    So when you start adding in to doing an inspection at every 
compliance review, that adds significantly to the amount of 
time that it takes the investigator at the place of business. 
So what we have been trying to focus on is use the compliance 
review to look at basic safety management controls, and then 
the roadside inspections on which I testified to this Committee 
last week. We did over three million of those in the Nation 
last year. Those roadside inspections feed into a data system 
that allows us then to evaluate the safety and fitness of the 
vehicles.
    Now, what we think will happen under CSA 2010 that you are 
asking about is we believe that there will be the opportunity 
then to rate carriers based upon what is happening at the 
roadside, as opposed to just what is happening when we go in 
and do a snapshot in time review of that company's operations. 
So we believe that it will help, but this is going to be a very 
big process. It is going to be a big sea change for the way we 
do business and the way the States do business.
    Mr. DeFazio. So you are saying in the case of Global Limo 
that the FMCSA representative who visited basically just 
reviewed paperwork and never actually went out and looked at 
the buses, and that is the way the agency works.
    Mr. Hill. I am saying that there are times that we inspect 
the vehicles, but it is not----
    Mr. DeFazio. Well, the random checks on the road, you said 
how many last year?
    Mr. Hill. Three million.
    Mr. DeFazio. Out of how many operations, what percent of 
operations?
    Mr. Hill. That is going to be----
    Mr. DeFazio. Given how many trucks and buses there are. It 
has to be a pretty small percent.
    Mr. Hill. It is.
    Mr. DeFazio. Right. Okay. So instead of when certifying, I 
mean, actually sending someone out to one of these carriers, 
you just don't have the staff or the resources to actually 
physically inspect the vehicles. Because you are saying it 
would take too much time. Basically, we are getting to a 
staffing issue, I believe here.
    Mr. Hill. Well, that could be one factor. The other is the 
size of the carrier population and what is expected to be done. 
So what we are trying to do is look at all of the data that we 
have available.
    Mr. DeFazio. Right. But I mean if you actually get 
physically to an operator, you would think, well, we don't get 
there very often. In fact, again, I appreciate the fact that 
there may be a statutory deficiency here, that new operators 
can operate up to 18 months before they are inspected, a 
loophole being utilized by curbside folks. And you are trying 
to get to them within nine months. Don't you think it should be 
before they begin operations? Why would we say, you are a 
startup; we know nothing about you; you have submitted your 
paperwork; we are going to actually come out and see if you are 
actually at that address, which in the case of the curbside 
people, they often are not; and maybe even go out and kick a 
couple of tires. Don't you think that would be a good thing to 
do before someone starts operating?
    Mr. Hill. Mr. Chairman, if the Committee feels statutorily 
that we need to take a look at that, I would be glad to work 
with the Committee and do so.
    Mr. DeFazio. Do you think that would be prudent, as a 
citizen who might consume this product? Would you want to get 
on a bus of a new operator that had not been inspected?
    Mr. Hill. I would like to have the authority to do more 
things with safety than what we currently have in this area, 
but we do have laws that are in place that require us to allow 
as many people in the industry to join as we can.
    Mr. DeFazio. Well, we need to look at that, and then you 
can say it is free market forces. If that operator kills 
people, then they probably won't get passengers next week. I 
don't know. I think the American public deserves better than 
that, so I am a less concerned about free entry and ease of 
entry into a business which involves the safety of the 
traveling public than I am about these new entrants providing 
and meeting minimum safety standards. So I have a concern about 
that, and we will have staff visit with you about that.
    And then secondly, the issue of when audits are actually 
conducted, that it is just a paperwork audit. I just think that 
going out and looking at the condition of some of the equipment 
is pretty key. It seems to me that should also be included. 
Whether that requires some directive or requires more staff, I 
am not sure how we get there, but I would like to examine that 
issue, too.
    Mr. Hill. That particular piece, Mr. Chairman, we can take 
care of administratively. We can definitely look at doing that 
a little bit more effectively in our new entrant process.
    Mr. DeFazio. Okay. Thank you.
    The Ranking Member?
    Mr. Duncan. Thank you, Mr. Chairman.
    First of all, these are pretty impressive statistics. You 
have 3,300 bus companies, 2.4 billion miles traveled by these 
companies, 595 million trips, and as Chairman Rosenker said, it 
is probably the safest form of transportation. We shouldn't 
lose sight of that.
    On the other hand, everybody, no matter what their 
position, they should always be trying to improve and get 
better. We do want to try to make things as safe as possible.
    On the other hand, there is an appropriate balance in every 
area. If you over-regulate a business, then you are going to 
raise the prices and you could potentially knock a lot of poor 
and lower income people out of a form of transportation that is 
very, very important to them. So you have to take those into 
consideration also.
    How frequently, Administrator Hill, on average are these 
buses inspected?
    Mr. Hill. Congressman Duncan, we are inspecting about 
26,000 last year at the roadside. Now, I need to caveat that. 
In SAFETEA-LU, there was a prohibition against us doing 
inspections while the vehicle is en route, so we do it at point 
of origin or point of destination. We try to work that.
    Mr. Duncan. Right. And there is a reason for that, because 
you didn't want to inconvenience all the passengers.
    Mr. Hill. Well, we were concerned about roadside safety. We 
don't want a busload of people sitting alongside the road, and 
we want to make sure that it is safe.
    But 26,000 of those inspections done last year, now, that 
still is a small number, but it is, as I indicated, double from 
what we did the previous year. So we are trying to take this 
Committee's guidance to improve motorcoach safety as a result 
of the curbside hearing, and improve our oversight. So we are 
really making sure that the States are much more involved in 
inspections of buses.
    Mr. Duncan. I doubt that there are very many, there are 
probably not any agencies in the Federal Government that can 
say they have doubled their number of inspections from the 
previous year. That is quite an increase.
    I do hope that because of this hearing that there is not 
pressure to suddenly start finding more violations. What I am 
more impressed with is that if people do find problems, they 
put on their reports how quickly they were corrected. That is 
an important thing.
    Chairman Rosenker, in your testimony you name four areas: 
motorcoach crashworthiness, motorcoach fires, maintenance and 
oversight by FMCSA, and cell phone use by bus drivers. Which 
would you say is the number one, or would think is the most 
important?
    Mr. Rosenker. I hate to begin the process of selecting a 
priority, when all four of those together really is the answer 
to begin the process of preventing accidents altogether, and if 
in fact an accident does occur, it is a survivable accident. So 
it is really the combination of those areas together that will 
make this safe industry even safer.
    Mr. Duncan. And you discussed the need for improved roof 
strength, and easier to open emergency window exists. How 
difficult or how expensive do you think it would be to correct 
or improve those areas?
    Mr. Rosenker. Well, as far as the pricing is concerned, we 
have not done a study on pricing. We just know what the results 
will be if in fact these are implemented. When we are talking 
about issues that would provide for additional standards, they 
would be NHTSA's responsibility of oversight and what in fact 
those standards would be.
    We are looking for a result. The result that we are looking 
for is a stronger roof. We are looking for stronger glass. 
These buses have very large picture windows. If in fact they 
break in a rollover, the potential for ejection is very high.
    We are also looking for improved motorcoach occupant 
protection systems. These would be an entirely new examination 
of how we want to restrain people in seats. Currently, we 
compartmentalize. That is a good system in a forward accident 
or in a rear end accident. It is not a good system in a 
rollover.
    So we don't have the answer specifically. That is what 
NHTSA is supposed to do. In a study that they have just 
released last week, they examined the issue of rollovers and 
how they would better improve restraints. It may well be a 
combination of passive and active systems. Some form may well 
be a belt. It may well be a bag. It may well be an improved 
compartment.
    We are not prescriptive in our recommendations. We are 
looking for a result.
    And finally on the issue of egress, we want to make sure 
that in the event the bus is on its side, you are able to get 
out through its roof.
    Mr. Duncan. What did you feel was the most important lesson 
learned out of the Texas bus incident?
    Mr. Rosenker. Clearly in this case, preventive maintenance. 
There was no preventive maintenance in this case. It was, if 
something broke we would fix it. There was no plan to make sure 
that the buses were safe when they went out on the road. In 
this case, there was no grease, no oil in the bearings. 
Therefore, they got hot. They caught fire. And in this 
particular case, and a very, very unique one, Mr. Duncan, there 
were 44 elderly people, many of which were non-ambulatory. They 
had no chance of getting out in a big fire. No chance 
whatsoever.
    Mr. Duncan. Administrator Hill, in those 26,000 inspections 
that you did last year, you said you doubled the number of 
inspections. Did the number of violations also double? Or was 
there some relation there? Were things getting better or worse 
from what your agency found out in those inspections?
    Mr. Hill. Congressman Duncan, what we have found is that 
the motorcoach out of service rate is much lower, both for 
vehicle and driver, than it is for trucks. What we have found 
is that that has been a constant theme as we have done 
inspections through the years.
    Now, what we have done in the last year since the curbside 
bus hearing is we have addressed some specific areas with those 
operators in the Northeast with the Task Force. We have 
identified 24 curbside operators in the Northeast area, that we 
could identify, anyway. Of that, we have taken up some 
enforcement actions. We have done safety or compliance reviews 
on all of those but one, and that one is pending. In that case, 
we have found two that have gone out of business after we 
visited them, and three have conditional ratings. We have taken 
enforcement cases for I think 15 times, including hours of 
service, drug and alcohol, and also one company had speeding 
problems. So we specifically did enforcement cases against 
those curbside operators that were having difficulty.
    Mr. Duncan. I remember that hearing, and you did have some 
operators in that area that the whole industry, I think, was 
upset about.
    At any rate, thank you very much, Mr. Chairman.
    Mr. DeFazio. Thank you, Mr. Duncan.
    Mr. Altmire, do you have questions? Okay, no questions.
    Mrs. Capito?
    Mrs. Capito. Thank you, Mr. Chairman.
    I want to thank the gentlemen for testifying.
    I am very interested in this subject, particularly on the 
heels of the Atlanta tragic accident. I happen to have a 
daughter who travels with an athletic team, and they drive a 
lot of times in the middle of the night, rushing to get back 
for class after completing their athletic endeavors.
    I would like to ask two questions. One is the relationship 
between the NHTSA, the NTSB, and the FMCSA, if I have them all. 
I think a lot of times people working in the right direction, 
trying to improve and make suggestions for safety, for driver 
safety, for vehicle safety, but sometimes there is a lack of 
coordination between the three entities that are working and 
other such entities, whether it is the States or other 
localities.
    What kind of measures have you all put forward, or do you 
think would be good to put forward, to see that the right hand 
is talking to the left hand, and all going in the same 
direction?
    Mr. Hill. Congresswoman, thank you for that question. One 
of the things that happens when the NTSB issues a 
recommendation, we are required at the Department level every 
month to go through an evaluation process of how we are doing 
on meeting rulemaking deadlines and also NTSB recommendations.
    So we are required to report to our Deputy Secretary every 
month on the progress we are making with those specific 
recommendations. Also it requires us to coordinate with the 
sister agency, so that we have to show if this is a 
recommendation, as the Chairman has indicated today, that 
involves NHTSA, FMCSA involving motorcoach safety, we have to 
report on how we are coordinating and communicating with NHTSA 
and milestones that we are supposed to meet in making that 
recommendation. So we have internal processes.
    And I can just tell you as an agency, we work very closely 
with the NTSB staff and also the NHTSA staff to try to, in this 
case, deal with bus fires. One of the charges that came out of 
the Wilmer bus fire investigation was the need to improve bus 
fire data. So we have been working with NHTSA to better 
identify sources of information about bus fires. We are also 
working with the fire group to deal with information they have 
in that arena. We are right now analyzing 550 bus fires that 
have occurred over the last 10 years to better get our hands 
around what is going on with these tragic instances so that we 
can then develop policy and regulatory agendas for how we 
should proceed accordingly.
    Mrs. Capito. Did you have another comment?
    Mr. Rosenker. Yes, ma'am. Our business is to investigate 
accidents, to determine the probable cause, and from that 
probable cause, develop a series of recommendations that will 
prevent that type of accident from happening again. We present 
them to our fellow agencies. Now, we are an independent agency, 
so we will operate by talking to the modal administrators of 
their agencies. We will talk to the departments. We will also 
talk to Congress. We will also talk to operators. We will also 
talk to manufacturers.
    Our record is pretty good. Of the 12,600 recommendations we 
have issued in the 40 years that we have been around--and we 
will celebrate, if I can offer a little commercial, our 40th 
anniversary beginning in April--82 percent of what we have 
recommended has become either an operating change, a 
manufacturing change, a regulatory change, or a legislative 
change.
    So we are proud of our record. I would like to see that 
become 100 percent and the Board will be working toward that.
    Mrs. Capito. A quick question. Has there ever been any 
research into airbags in motorcoaches, side bags?
    Mr. Rosenker. There has been a good deal of research, but I 
don't know where the final assessment and analysis is. We are 
really interested in examining what this report, which was just 
released by NHTSA and Transport Canada, says about occupant 
protection in motor coaches.
    Mrs. Capito. Okay, last question, most of the motor 
operators are small businesses. According to the data, only 1 
percent of the companies in the industry operate more than 100 
motorcoaches. Do you have available some special training for 
small businesses? I think we have identified this as part of 
the problem with the inability of some small businesses that 
are getting in this maybe without going through all the hoops, 
and then 18 months later then becoming inspected.
    I think this is shining a light on a deficiency, at least 
in terms of small business training and safety awareness.
    Mr. Hill. Congresswoman, one of the things that happened 
with the Congress back earlier than when I was with the agency 
was they set up the new entrant program as a statutory 
requirement. It said basically we want you to go out and we 
want you to help motor carriers understand what their 
responsibilities are under the law, and then make sure that you 
audit to see whether or not that happens after they first come 
into business.
    We believe, as the Chairman has indicated, that the whole 
motorcoach industry is so sensitive with the commodities they 
haul. We didn't feel comfortable waiting for 18 months. That is 
why we administratively have moved that up to nine months to 
get in there and visit them.
    Secondly, we are taking an approach that we do have 
information on our web site for new entrant motor carries, 
motorcoach operators. Secondly, we are visiting them. There are 
900 of them in a given year that come into business, so we go 
out and make sure that they are visited. And then we provide 
tools to them, either through written materials or web site 
materials, and then we take them through the process to make 
sure that they have the systems in place--drug and alcohol, 
hours of service, and so forth.
    So we are doing that. I think what we need to do is as we 
are seeing the new entrant process change, we have issued a 
notice of proposed rulemaking to change the way we look at new 
entrants, to make it more stringent. We believe that as that 
goes into effect, we are going to see much more oversight of 
those new entrants, as the Chairman had indicated, on an 
earlier visit than we are now.
    Mrs. Capito. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlelady for the good questions.
    Ms. Fallin, go ahead. Mr. Oberstar is thinking, as he often 
does, so he will have questions soon.
    Ms. Fallin. Thank you, Mr. Chairman.
    I heard you talk, Director Hill, that you have doubled the 
amount of inspections on the buses. I think it is very 
important for us in Government to have a culture of continuous 
improvement in all processes that we deliver.
    I also heard you say that it would be helpful if you had 
authority to do more things for safety than the laws allow. I 
don't know what you meant by that, but if you could explain 
what we can do in Congress to help you, that the laws might 
allow you to do for safety.
    Mr. Hill. Specifically, it was the interchange between the 
Chairman and I concerning the new entrants. He said we may have 
a statutory issue. Right now, the law says that we have to get 
in and do a new entrant audit within 18 months. So we can't 
withhold the ability to issue operating authority to anyone 
until we have had the new entrant review.
    So I am not suggesting that we require every single person 
to show fitness beforehand. That would be something that we 
would have to work with the Committee on. But I do think that 
the motorcoach issue does require up front evaluation much more 
stringently than we do with people who haul general freight.
    Ms. Fallin. Okay. If I could do a follow-up question, Mr. 
Chairman. You were asked about the airbags and if there have 
been any studies for safety on airbags. What about seat belts? 
I know it is a cost factor, but what have the studies shown a 
far as cost factors versus safety?
    Mr. Rosenker. We have actually done some work early on in 
seat belts in motorcoaches. The jury is out. In some cases, you 
may have some unintended consequences of accidents which could 
be in fact just a minor injury, creating a serious injury with 
lap belts. So we have done some kinematic simulation and we are 
still not sure what the answer is.
    We are looking at a systems approach, fully integrated. I 
don't want to give the impression that safety belts are bad. We 
have done very, very well with safety belts in automobiles. 
They have been extremely useful and extremely effective in 
preventing injury and fatalities. The question is how do you do 
that in a much larger compartment to guarantee that you have, 
in all kinds of situations, a safe restraining system, and that 
you won't do harm in what otherwise may well be a minor 
accident.
    Mr. DeFazio. Thank you for your questions.
    I would like to follow up on that. Was the qualifying word 
in there ``lap'' belt? What are you anticipating that could 
cause more injury if a bus were to go on its side or go on its 
top, and people are flung out. Let's go to the Georgia case, 
very recent, very tragic, especially when young people die so 
prematurely. I think those were mostly ejection deaths in that 
case. Weren't they?
    Mr. Rosenker. I am hesitant to tell you exactly what 
happened there, given the fact that we are only 18 days into 
that investigation.
    Mr. DeFazio. But we know where the bodies were or weren't 
found.
    Mr. Rosenker. In some cases, we know exactly what happened, 
and in others we are still trying to analyze what happened.
    Mr. DeFazio. Okay.
    Mr. Rosenker. If it is okay with you, Mr. Chairman, I would 
prefer to talk about the recommendations we have had after 
studying a number of motorcoach accidents that have been on the 
record for close to eight years.
    Mr. DeFazio. Okay, that would be fine.
    Mr. Rosenker. And nothing has been done. They are in the 
areas, if you will, of NHTSA studying and ultimately coming up 
with a series of standards which talk about motorcoach occupant 
protection systems. The word is ``systems,'' a fully integrated 
system, some of which will be active, some of which may be 
passive.
    We are hesitant at the NTSB to say the answer is clearly 
using a safety belt in some way, shape or form. It may not be 
the best answer. It may well be in a bus where you have 50 some 
odd people to be doing something maybe with a bag, something 
with an active or a passive system that occurs when in fact a 
strike occurs or the roll occurs. We have some data that we 
have seen through our kinematic simulations that has not always 
proven that a belt is the answer.
    Mr. DeFazio. Again, just if we could get at the bottom of 
this, is it because it was a lap belt, not shoulder harness lap 
belt? Or was it just restraining the person in the seat that 
caused the problem?
    Mr. Rosenker. It could be, and I hate to be----
    Mr. DeFazio. You have raised the issue about its potential. 
I know the EU and Australia have gone ahead with safety belt or 
shoulder harness safety belt systems. I am just trying to get 
at the root of is it at the margin? What is the concern about 
restraining a person in the seat?
    Mr. Rosenker. If in fact we talk in terms of new vehicles, 
it is much easier to create the system. We certainly do not 
want to begin the process of retrofitting vehicles that are not 
designed to be equipped with either lap belts or a combination 
of a lap shoulder belt. We don't believe that is the answer. 
They are not currently designed to be able to handle that type 
of stress or that type of design.
    Mr. DeFazio. If they were anchored to the seat?
    Mr. Rosenker. If they were anchored in any way, shape or 
form to even perhaps the floor panels, because the floor panel 
was not currently designed to hold them.
    Mr. DeFazio. So we are where aviation was 10 years ago, 
where they did require lap belts, but the lap belts were 
developed to DC-3 standards, and we were flying jets. 
Therefore, the seats didn't stay anchored and the industry was 
very reluctant to have seats that would stay anchored, until 
finally a new standard was mandated and we actually began to 
have seats that were developed for jets and used in jets.
    So you are saying basically what you would need is to say 
from this day forward, or promulgate a future rule for newly 
manufactured buses that either the seats as they are anchored 
to the floor people could be safely restrained in the seat, or 
they could be directly attached to the floor, which would be 
sufficient. But preexisting buses don't meet those standards 
and couldn't.
    Mr. Rosenker. Yes, sir. But in addition to that, there may 
well be even better systems out there, new technologies that 
may well include smaller bags. If you take a look at what some 
of the automobiles are doing now, they actually have side bags. 
That may well be an approach that could be looked at for the 
motorcoach.
    As I say, we are not prescriptive at the NTSB. We are 
looking for what we believe is a fully integrated systems 
approach which will result in preventing people from being 
ejected or thrown in some way across the aisle.
    Mr. DeFazio. Okay. Thank you. That was a digression.
    Chairman Oberstar?
    Mr. Oberstar. Thank you very much. I am delighted you have 
scheduled this hearing and are probing into this subject matter 
in depth. I want to thank you and Mr. Duncan for your 
thoughtful and carefully structured approach.
    Intercity bus travels have been a matter of long interest, 
and more than appreciation, an economic issue in my District. 
Greyhound started between my home town and the neighboring 
community of Hibbing, Minnesota. They started bringing miners 
to work. Bus Andy, George Anderson founded Greyhound. Well, his 
neighbor asked him for a lift to work one snowy morning when he 
figured he couldn't walk and make it in time. After a few days, 
Bus Andy took a torch and cut his Hupmobile in half, welded a 
couple of rails in there, put some seats in, and started 
hauling miners to work for charge.
    About the same time, General Motors came out with the first 
bus. He started it. By then he had named it Greyhound Services. 
My father was a great bus devotee. He said, if you can't walk 
there or take a bus there, you don't need to go there, wherever 
``there'' was.
    In 2005, while aviation was posting some 700 million 
passengers in the domestic air space, intercity buses carried 
631 million passengers. That should cause us to stop, take 
stock, and think about the significance of this hearing and its 
subject matter.
    Let me put it in further context. When we created the 
Federal Motor Carrier Safety Administration, I took language 
from the opening paragraph of the organic act of the FAA in 
1958, and started the legislation with these words: ``Safety in 
motor carriers shall be maintained at the highest possible 
level.'' That is the basic guidepost for FAA safety, and it has 
served us exceedingly well. I thought we ought to, if we are 
creating a new administration to manage safety for over the 
road vehicles, trucks and buses and vans and all the rest, that 
we ought to aim for the best, not just the safety that, as in 
aviation, the airlines can afford; not just the safety the bus 
companies or trucking companies can afford; but the highest 
possible level.
    The National Transportation Safety Board has been our 
beacon for guidance on safety matters, finding what went wrong, 
giving guidelines to how to fix it in the future.
    Mr. Hill, you come from a safety background, the Indiana 
Patrol. You understand the significance. You and I had a good 
conversation about several aspects of safety. Not all of the 
issues that are the subject of this hearing can be laid at your 
doorstep, but they are instructive for you.
    Mr. DeFazio just raised a question about seats. As Mr. 
Rosenker knows, and Mr. DeFazio and Mr. Duncan as well from his 
work in aviation, many years ago when I chaired the Aviation 
Subcommittee, we pressed the FAA to improve the standards and 
strength of seats, because what happens so often in a crash is 
the seats shear off, people slide to the front, and are crushed 
and killed.
    So FAA has imposed a 16G standard. Is there any such 
standard for motorcoaches? Mr. Hill? Mr. Rosenker?
    Mr. Hill. I am not familiar with such a standard.
    Mr. Oberstar. Have you given any thought to such a thing? 
Have you looked at past accidents and seen what happens to 
seats when they have a crash?
    Mr. Hill. I would be glad to confer with my colleagues at 
NHTSA, and I would be glad to get back with the Committee on 
that. I am not familiar with any studies in that regard, sir.
    Mr. Oberstar. Yes, I think you need some intermodalism 
here, and I think it would be very important to bring NHTSA 
into this discussion.
    Chairman Rosenker?
    Mr. Rosenker. In the United States, we have no standard 
specifically for the passenger seat. However, overseas in 
Australia I believe they have a fairly significant G force. Yet 
in Europe it is I believe a 3G factor.
    As far as the safety belt is concerned in a bus, there is 
only one requirement, and that is for the driver. That is 
today.
    Mr. Oberstar. Yes. That is something that should be 
considered. I find when I take Amtrak, I sit down and I reach 
for my belt, and it is not there. Maybe you don't need it, but 
it should be a thoughtful consideration. That 33 passengers 
were killed in 2005 is too many. We should have a zero 
tolerance. That is what aviation's goal is, a zero accident 
objective.
    What is even of further significance is that this hearing 
is being held and the consideration of safety practices in 
FMCSA at the very time that the border is being opened to 
Mexican trucks. The mindset of FMCSA in matters such as over 
the road buses will be important as an indicator of how you 
intend to proceed to enforce Mexican trucks.
    Now, in the case of Global Limo, the FMCSA found egregious 
critical violations, and then shut the company down. But that 
is a rare occurrence, and that was in a unique circumstance. 
The out of service rate for commercial vehicles, both trucks 
and buses, is 23 percent last year. Now, if that is the case, 
and we have Mexican trucks and we are supposed to have 
inspectors in Mexico and in the United States, and they are 
going to have inspectors.
    What are you thinking about as you proceed with enforcement 
of the existing intercity bus service and as you look forward 
to the penetration of Mexican trucks further into the United 
States? If we already have such a bad out of service record, 
can you then further delineate between trucks and buses of that 
23 percent?
    Mr. Hill. Yes, Mr. Chairman. Before you came in the room, 
Ranking Member Duncan asked me something about the performance 
of buses and the out of service rate. The out of service rate 
for buses is fairly consistent for the vehicle part. It is 
about 9 percent. The 23 percent that you quoted, sir, is 
related specifically to the truck out of service rate.
    As far as the driver out of service rate, it is somewhere 
around 4 percent for the drivers of motorcoaches. So 9 percent 
versus 23 percent, I think you are right. We should not be 
satisfied with 9 percent. We should be looking for the 0 
percent to 1 percent. There should not be out of service 
violations for motorcoaches or trucks. We need to have more 
improvement in that area.
    So I am consistent with you. I am going to CVSA, which is 
the Commercial Vehicle Safety Alliance, next week to speak with 
all of our State partners. This is one of the things that I am 
going to be talking about, is the oversight from this 
Committee, the commitment to safety, and the fact that we need 
to continue to improve our activities in motorcoach oversight 
and not just rest on the improvements that have been made in 
the last 20 years.
    Mr. Oberstar. The sooner that the companies understand that 
the FMCSA is going to be serious and tough and shut some 
companies down, they will shape up, because they don't want to 
be out of service. They don't want to be out of business. They 
have to be in business and in compliance.
    Now, in response to an earlier question about the company 
that was inspected just a short time before its accident, you 
said that was largely a paperwork review. Explain what you mean 
by paperwork review.
    Mr. Hill. The question was from Chairman DeFazio about, 
one, when we did the compliance review of Global Limo, why did 
we not find the vehicle-related defects. What I explained to 
him is that our compliance review under normal circumstances 
does not involve an in-depth inspection process of all the 
vehicles.
    What we rely on primarily as far as vehicle inspections is 
from the roadside inspections and handle them randomly 
throughout the Country. So there was not an in-depth vehicle 
assessment at the time that that compliance review was made.
    Mr. Oberstar. Do you have a sufficient number of inspectors 
to undertake these reviews? How many inspectors do you have?
    Mr. Hill. We have 700 safety investigators throughout the 
Country. We have between 10,000 and 13,000 State trained 
inspectors and auditors and investigators among the various 
State jurisdictions. And when the Congress set up the Motor 
Carrier Safety Assistance Program, they were very intentional 
about wanting there to be grant programs given to the States. 
They wanted this to be a partnership. Having come from the 
State, I am very much interested in making sure our agency 
keeps that focus in pushing the work out.
    For example, I came to the agency in 2003 and I was shocked 
that more States weren't doing compliance reviews, somewhere 
around 1,000 to 1,500 a year. I said, look, we have to get more 
State people involved in doing compliance reviews of carriers. 
They have more people than we do. They have the expertise, and 
are closer to the situation. They know this.
    So we have now increased that last year up to over 5,000 
compliance reviews by the State people. That is not 
satisfactory for me. So to answer your question, I want to see 
more resources dedicated to commercial motor vehicle safety, 
and that is one of the communications I am going to have with 
the States next week.
    Mr. Oberstar. That is very good and commendable. I will 
close on a note that you go meet with those folks next week, 
and you tell them this Committee is serious about safety. We 
are serious about the partnership between the Federal and the 
State government. I participated in that, in crafting the 
language, although I thought we ought to have a stronger 
Federal role, but there is a partnership between the Federal 
Government and the State government in the construction of our 
highways and bridges and transit systems. There similarly 
should be a partnership on safety.
    I will just give you one example. In the mid-1980s, I was 
Chair of the Investigations and Oversight Subcommittee. We were 
looking into aviation safety. We found major failures of 
maintenance in U.S. air carriers. The FAA Flight Standards 
District Offices reported to the Subcommittee that we don't 
have enough people to do these inspections; we are looking at 
paperwork, not engine work; we are looking at reports, we are 
not hands-on on the shop floor.
    As a result of that, Congress and this Committee approved 
an authorization of an increase of $10 million to hire at least 
1,000 more FAA safety inspectors, and train them, and put them 
out in the FSDOs, the Flight Standards District Offices.
    So you can't do safety if you are just looking at the 
paperwork and looking at the reports. You have to be in the 
shops, in the offices, with the drivers. You have to be out on 
the roads.
    Thank you.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Boozman?
    Mr. Boozman. Thank you, Mr. Chairman.
    I really don't have any questions, but I have appreciated 
the discussion, and I appreciate you and Mr. Duncan holding the 
hearing. This is not the most glamorous subject in the world, 
but it is very, very important. So again, I appreciate it. 
Thank you.
    Mr. DeFazio. I thank the gentleman.
    Just to follow up on the Chairman's line of questioning, 
Administrator Hill. What is a compliance review versus what do 
we call the initial review when a new company is established? 
What do we call that?
    Mr. Hill. A safety audit.
    Mr. DeFazio. Okay. So does a safety audit include a 
thorough inspection of all the equipment, since a compliance 
review does not?
    Mr. Hill. No, Mr. Chairman, it does not.
    Mr. DeFazio. So in a safety audit, we are still not going 
out and physically looking at the buses there?
    Mr. Hill. Mr. Chairman, the operative word there was 
``thorough.'' You said, do we do a thorough inspection. We do 
some inspections at the business, but it is not as robust as 
you are indicating that you would like it to be.
    Mr. DeFazio. Okay. But a safety audit for a new entrant 
does include at least going out and taking a look at the 
equipment.
    Mr. Hill. In some cases, it does, but it is not the normal.
    Mr. DeFazio. That causes me an even new and higher level of 
concern. So we have someone who has entered into business. They 
are a new entrant. And I appreciate the fact that you are 
getting to them within nine months, and not 18 months, to look 
at mostly paperwork, but I just can't believe that at some 
point do all States require physical inspection of buses for 
new entrants? Do all States require that?
    Mr. Hill. Not all States, no, sir. There are some that do. 
For example, in Indiana and I think in Ohio they have that kind 
of regime. The bus that was in question here in the Atlanta 
crash had been inspected by the Public Utility Commission 
authorities the Friday before that crash.
    Mr. DeFazio. Right. But the one in Texas, for instance, 
Texas doesn't inspect buses.
    Mr. Hill. Well, I don't know the answer, but I would be 
glad to get back with you. But several States do not require 
it. That is correct.
    Mr. DeFazio. So we have the possibility that we have a new 
entrant, and they can operate for nine months under your 
current inspection regime, under your regulations up to 18 
months, without any review of their operations, except for 
random safety checks on the highway. And then even when we do 
get someone there, we are not mandating at least an initial 
inspection of their equipment. That is correct, right? That is 
correct?
    Mr. Hill. That is an accurate description. Yes, Mr. 
Chairman.
    Mr. DeFazio. Yes, okay. If I could just return again to the 
Texas incident, I am again curious, and there is some 
discrepancy between when the compliance review was conducted 
versus when the deaths occurred. I have one source that says 
three months, and another that says 19 months. Do we know the 
answer to that?
    Mr. Hill. I would feel better about getting back with you 
on the record, but I know that there was a compliance review 
that was done initially by our agency, and there was a review 
done by the Texas authorities. And then after the tragic event 
that occurred, we went back in and did a compliance review 
again. I would like to get back to you, if we could.
    Mr. DeFazio. Okay. If we could nail down the chronology, 
the deficiencies found, when was the initial compliance review, 
what deficiencies were found, what further action was taken. 
Because I am puzzled. The driver did not speak, understand or 
read English; did not have a U.S. commercial driver's license; 
did not get a U.S. doctor to issue him a medical fitness 
certificate; and had never received training on the bus he was 
operating. I don't know where they got him. He maybe just snuck 
across the border and they put him in the driver's seat and he 
was a good price for the company.
    But I am just curious as to how long he had been there, and 
they only had six drivers. We are not talking about a big 
company. If you are coming in and reviewing the paperwork, and 
the company has six drivers, how could we miss the fact that 
the guy is an illegal immigrant who has no training, no 
license, and no medical review? I mean, how could that happen? 
That has to have been a contributory factor here.
    Mr. Hill. Mr. Chairman, all I can say to you is that when 
we did the review, it is possible that more drivers could have 
been hired after we did the review, but that is something that 
I will have to delineate in the current review.
    Mr. DeFazio. We would also like that chronology if we 
could, too.
    Mr. Hill. Yes, sir.
    Mr. DeFazio. Was this person on staff at the time of the 
review, and somehow did we miss those extraordinary 
deficiencies.
    Chairman Rosenker, am I pronouncing your name properly?
    Mr. Rosenker. Yes, sir. Very well. Thank you.
    Mr. DeFazio. All right. I just wanted to make sure. People 
always butcher mine, so I am sensitive to that.
    I want to ask you to quantify back. It is a point you have 
made, but I just want to get at the bottom. There have been 65 
recommendations, according to our records, since 1999 to the 
Federal Motor Carrier Safety Administration, and only 26 have 
been closed, which when you talked about your overall 
recommendations and statistics, historically you had an 80 some 
odd percent closure rate. In this case, by my rough estimate, 
we are pretty far below 50 percent here. We are in the low 40s.
    Could you tell us which of those you think, again for the 
record, are the most important that have not yet been acted 
upon? I assume none of these are frivolous. I don't think NTSB 
proposes frivolous things, but some of them might be 
potentially expensive. Is that the problem? Could you just 
enumerate a little bit, or elaborate?
    Mr. Rosenker. Sir, 36 remain open of the 65. The actual 
percentage rate from 1967 until today, the 40 years of the 
NTSB, is about 72 percent. So we would like to see the 
Administrator bring that up by about 10 percent. At least he 
would be average, and frankly we would like to see him even go 
beyond that.
    Mr. DeFazio. We don't think of him as an average guy. We 
would like him to beat the average.
    Mr. Rosenker. I would agree, sir. I would agree.
    Mr. DeFazio. All right.
    Mr. Rosenker. The areas that we are particularly interested 
in are that of dealing with the driver; that of medical issues. 
We have put out eight recommendations, seven of which are still 
open. Now, they have a Medical Review Board that is getting 
ready to work on a host of the medical issues that I believe we 
have suggested.
    Part of the problem, Mr. DeFazio, is it takes too long from 
the time we make a recommendation to the time the FMCSA and 
frankly NHTSA and in some cases other modal agencies, to 
implement what we have said. These are well thought-out 
recommendations. These are documented by virtual analysis of 
accidents. And because of that, when you implement them, we 
genuinely believe you can begin the process of prevention, and 
if in fact you have an accident, mitigating the tragic results.
    Mr. DeFazio. Thank you.
    Mr. Hill, do you care to respond?
    Mr. Hill. Mr. Chairman, the medical issues that are 
involved in the most wanted list and also in the open 
recommendations are something that we have been working on very 
hard at FMCSA. Let me just point out a couple of things that we 
are doing.
    My predecessor when she came in and I was her Chief Safety 
Officer, we really worked hard at getting the rulemaking 
backlog improved. Medical processes are part of that. We have 
set up the Medical Review Board. We are dealing with preparing 
right now regulatory action to deal with the National Registry, 
so we would have an examiner registry to make sure that the 
people that are doing exams are meeting standards, and then we 
can track it and make sure that they are complying with what 
the guidance from this Committee has been.
    And then the Medical Review Board has met three times. They 
are meeting again in April. They are going to be giving us 
recommendations on how we should then proceed with changing our 
regulations. Most of these medical regulations have been in 
place for a number of years. I know this Committee has given us 
specific guidance in SAFETEA-LU about diabetes exemptions and 
so forth.
    So we are trying to make sure that our medical standards 
reflect current science. So we are working to do that. We have 
a great panel of people that are putting that together. We have 
issued a notice of proposed rulemaking for combining the 
medical certification with the commercial driver's license. 
That comment period has closed. We are now going through the 
comment analysis phase, and we are going to prepare, then, the 
final rules so that we can get it out.
    We want to get this done. We want to get this most wanted 
list taken care of. I am anxious to work with the NTSB on doing 
it. One of the things I would like to say to the Chairman and 
this Committee for the record is that we are getting a lot of 
guidance from people that think that we ought to just model 
some other medical program that is in place, specifically the 
FAA, which is a much different set of people. We are dealing 
with six million drivers. It is going to complicate the costs. 
It is going to complicate the oversight.
    So what we are trying to do is to make sure that we come up 
with a rule that meets the guidance that Congress has said, 
within the constraints of cost/benefit that we must deal with 
as an agency.
    Mr. DeFazio. Okay. Thank you.
    Mr. Dent?
    Mr. Dent. Thanks, Mr. Chairman.
    Good morning. Mr. Hill, I have a question for you with 
respect to safety matters. In the safety scoring database that 
FMCSA maintains, SafeStat, some bus companies appear to have no 
record of inspections by Federal inspectors. How does a bus 
company not have any inspections, yet still retain its 
operating authority?
    Mr. Hill. Congressman Dent, one of the things that I talked 
about earlier in this hearing was the need to prioritize the 
bus compliance review process differently than what we have 
been doing. When we first got the initial set of 
recommendations from the hearing in Wilmer, Texas, in which the 
bus fire we have been discussing came out, I think one of the 
Members made a very astute observation that there are some of 
these motorcoach companies that have never had a compliance 
review, and some of them have been in business for a number of 
years.
    I came back to staff, and I said this is unacceptable. We 
have got to get every one of these passenger carriers rated, 
even if it means diverting resources. So what we are going to 
do between now and the end of the year is we are visiting every 
unrated, that means a carrier that has never had a compliance 
review with us, we are going to visit every one of those 
carriers to make sure that they have a safety rating in place, 
so we can track their performance better.
    So that is something that we are doing. And then we have 
increased the number of inspections from what we did last year 
significantly. We are going to continue to address that by 
requiring the States to have a bus inspection program in place. 
Some States have not been doing bus inspections, so we are 
requiring that as a part of receiving grant funding.
    So to answer your question, we want to make sure that there 
are better inspections, better compliance reviews so that we 
can better track these motor carriers.
    Mr. Dent. That leads to my next question, which is there 
have been reports of bus companies failing their safety 
inspections, and FMCSA is revoking the company's operating 
authority. And then within a short period of time, a few days, 
the bus company resumes operations. So how is it possible and 
what additional steps need to be taken to ensure that an 
operator that is shut down for non-compliance doesn't simply 
restart operations under a different company or corporate name?
    Mr. Hill. This is a huge issue for us because you are 
right. That has been the practice, not just with bus companies, 
but with truck companies that want to skirt the safety 
violations. So we are working. One of the requirements of 
SAFETEA-LU is that we are supposed to have a rule in place that 
will allow us to better track these carriers when they go out 
of business. So we are in the process of trying to define what 
kind of identifiers can we label a corporate entity with, and 
track the movement of those people, and at what level, to make 
sure that we know that when a carrier does stop operation 
because of our safety practices, we can track where they are 
going.
    At this point, what we are doing is we are dealing with 
anecdotal information that we receive from our investigators. 
We also rely on the SafeStat prioritization scheme. When we see 
a carrier coming up as unsafe, we go back and verify whether or 
not that carrier has been having similar problems.
    So we are trying to use some of our existing resources, but 
we are also looking to the future to write a rule to address 
this.
    Mr. Dent. Okay. Thank you for that answer.
    At this time, I will yield back the balance of my time. 
Thanks, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman for his questions.
    Mr. Coble?
    Mr. Coble. Mr. Chairman, I apologize for my belated 
arrival. I had a Judiciary hearing earlier.
    Mr. Hill, let me ask you this. There have been reports of 
bus companies that fail safety inspections, and the FMCSA then 
in response revokes the company's operating authority. And then 
within a few days, the bus resumes operations, I am told. How 
is this possible? And what additional steps need to be taken to 
ensure that an operator that is shut down for non-compliance 
doesn't simply restart operations under a different corporate 
name?
    Mr. Hill. Congressman Coble, as I was mentioning earlier in 
the hearing----
    Mr. Coble. This may have already been addressed. Has it 
been?
    Mr. Hill. I would be glad to answer the question.
    Mr. DeFazio. I think the gentleman's question is a little 
different. I think he is asking if you actually do get to the 
point of enforcement and basically having them suspend 
operations, I believe the gentleman is saying even though they 
received that order, they begin operating again. Not that they 
have been approved to operate again, but they continue or begin 
to operate. Is that the gentleman's question?
    Mr. Coble. Yes.
    Mr. DeFazio. I don't think that has been addressed.
    Mr. Coble. Okay.
    Mr. Hill. I know that, Congressman Coble, this was a 
problem especially in the Northeast with some of the curbside 
operators after last year's hearing. This was an issue that was 
brought up. So what we have done is in the last year we have 
directed a series of strike force activities to address these 
curbside operators. We have identified 24 of them to date.
    We have also been dealing with enforcement action against 
them. So we are trying to first of all identify who they are, 
so that we know who the principal owners are, and then we have 
gone in and visited them. And then secondly, when we find 
complaints or violations of another curbside operator, we go to 
make sure that this is not a recreated entity, by looking at 
the names and the information we have from the earlier 
compliance review.
    The one thing that we have not had in place is we have not 
had compliance reviews of all these carriers done. So we have 
now identified these 28 companies, and I said earlier that 18 
of them have been visited with ratings; three are conditional; 
two have gone out of business; and one is pending a review.
    So we are trying to build our database so that we know 
exactly what is going on. As I indicated in the earlier 
questions, we are now in the process of developing a rule that 
will allow us to take enforcement action against people that 
recreate themselves.
    Mr. Coble. It appears you are on top of this. I am 
encouraged to hear that.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman for his question.
    If we can go back just to this issue. My understanding is 
that an operator has to fail in two or more areas to get an 
unsatisfactory. Is that correct? So even if they are abysmal 
over here in the driver ratings, if over in the other 
categories they are okay, you would not give them an 
unsatisfactory? Is there a level at which, within one category, 
they have problems that you would give them an unsatisfactory 
rating? Or is there some regulation that precludes that?
    Mr. Hill. No, it is an internal process, and that is one of 
the reasons why we are looking at the comprehensive safety 
analysis, 2010, to redo the way we do safety ratings, sir.
    Mr. DeFazio. So currently that is the case?
    Mr. Hill. Yes, that is correct.
    Mr. DeFazio. So someone can have a whole bunch of drivers 
over here that are just like the Wilmer driver who is an 
illegal alien and no drug testing, no competence, no license, 
no medical, no nothing, but we wouldn't flunk that company if 
we found out they had someone like that? Under current rules, 
we couldn't?
    Mr. Hill. We could take enforcement action, but we would 
not revoke their operating license or give them an 
unsatisfactory rating.
    Mr. DeFazio. Boy, that does not give me much confidence. I 
think Mr. Rosenker would say these are two critical things. 
Could you tell us what those two critical things are?
    Mr. Rosenker. Mr. Chairman, you are on target as far as the 
NTSB is concerned. We believe that there needs to be some 
weight to these issues, the weight to the issues on driver 
performance, driver medical categories, driver knowledge, a 
whole host of issues which are directly attributed to the 
driver's capability to drive that vehicle safely.
    In addition, we believe there needs to be high weight put 
on the safety of the vehicle itself. If the vehicle is the 
Wreck of the Hesperus, then we believe the FMCSA ought to be 
able to say this vehicle is not safe to be put on the road and 
it will not be in our enforcement procedure.
    Mr. DeFazio. Mr. Hill?
    Mr. Hill. May I follow up, sir?
    Mr. DeFazio. Sure. Okay.
    Mr. Hill. Mr. Chairman, I would just say to you, we don't 
just give them a rating that is satisfactory or conditional, 
and then allow them to go into oblivion. We do have a system 
called the Inspector Selection System, ISS, which essentially 
provides roadside inspectors with a score of whether or not 
these vehicles and drivers and their safety practices are 
meeting standards. So if they are having deficiencies, as you 
have outlined, in this area of driver deficiencies, that is 
going to show up in this inspector score, and they are going to 
be required to be inspected as they go through a weigh station 
or they get stopped along the roadside. So we do have some 
oversight.
    However, the safety rating piece that you specifically 
asked about, that is accurate.
    Mr. DeFazio. I guess the question would be, and again this 
goes back, which you can't answer specifically, about their 
rating, how they receive that rating, and whether or not those 
items were identified, and the ISS was stopping the Global Limo 
vehicles. Because as I understand it, they were switching off 
license plates. They had illegal drivers. They were not doing 
maintenance. And somehow, they didn't ring any alarm bells 
until they killed 44 people.
    Mr. Hill. The Chairman is well noted on that, and I am 
going to have to concede that there were some deficiencies in 
this whole mess.
    Mr. DeFazio. I think we really need to kind of compare. 
This could be a really instructive case of comparing, since we 
did actually have a compliance review, and comparing what was 
identified; what that triggered; what follow up; and what 
actually happened; and the findings of NTSB and others that we 
will have soon, as I understand it, about what deficiencies 
existed after the fact.
    So this may be really an instructive model to where the 
system doesn't really track in a linear way. I am just 
appalled. There ought to be certain level of violation in one 
category where you just say, look, you have this guy driving 
who doesn't have a CDL, doesn't have a medical, doesn't speak 
the language, doesn't know how to drive the vehicle. We are 
taking license plates back with us, and you get in touch when 
you straighten this stuff out, and we will send an inspector by 
again.
    Mr. Hill. Mr. Chairman, one of the things that I would just 
say to you is that in the case of the tragedy that occurred in 
Llano, there is another story that can be told here. The bus 
company had been visited. They did have the safety practices in 
place. We had done inspections just within days before.
    Mr. DeFazio. No, that goes to the second issue, which is 
containing people in the vehicle and the integrity of the 
vehicle. I understand. I am not saying that your system always 
fails. There are a very few bad apples out there, obviously, or 
we would have a lot more problems. But we have to get the bad 
apples out of the barrel a little more expeditiously. That is a 
very simple way of putting it, but I think that is what the 
public would expect. I don't know, I do.
    Do either of you have any further reflections or closing 
statements? Otherwise, we will move on.
    Mr. Hill. Could I just say one thing in regard to this?
    Mr. DeFazio. Sure.
    Mr. Hill. I think it goes to the heart of what you are 
saying, Mr. Chairman. There was a program that was put in place 
several years ago, what we now call PRISM. Basically, what this 
does is it comes out actually the 1991 ISTEA. It allowed for 
the linkage of the safety performance with the registration 
system, which in the past were not conjoined. So we have right 
now I think 27 States that have the legislative authority to 
revoke registration plates of motor carriers that are found to 
be not in compliance with safety regs. I think that is a good 
thing.
    If we could have more States participating in that, we are 
working that very hard. But I think that is an area where we 
can get to the heart of this because as States have the 
authority to revoke registration, then you don't just have 
somebody violating a service order, you have somebody violating 
registration laws. And when they don't have the plates, that is 
a lot easier to detect than just an out of service order. So 
just a point of order, sir.
    Mr. DeFazio. Well, I would be very interested in working 
with the Department on that, and would be happy if you provided 
some details to correspond with those States and State 
legislatures and suggest that that would be a prudent step for 
them to take. So if you could provide some follow-up 
information, a list, I would be happy to follow up on that.
    Mr. Hill. Okay. Thank you, Mr. Chairman.
    Mr. DeFazio. Yes?
    Mr. Rosenker. Mr. Chairman, I thank you for the opportunity 
to be before the Committee today. I enjoyed the opportunity to 
be next to my friend, Administrator Hill. He has a tough job. I 
believe he and his colleagues at the FMCSA are as dedicated to 
safety as we are at the NTSB, and as the folks over at NHTSA 
are.
    All I would ask is that the Administrator take a look very 
carefully at our recommendations, and work with his staff to 
expeditiously implement them, and get that number from 72 
percent to perhaps 84 percent or 85 percent, because as the 
Chairman said, you are well above average, Mr. Administrator.
    Mr. DeFazio. I thank you both. This is a very big job, 
given the volume of the vehicles. I just know that we have to 
do better. So thanks to you both for being here today and 
helping contribute to ideas for improvement. I appreciate your 
time.
    With that, I would dismiss this panel and call the next 
panel to come forward.
    I thank the second panel for being here. We will begin with 
Mr. Crean.

  TESTIMONY OF CHRIS CREAN, DIRECTOR OF SAFETY AND SECURITY, 
                      PETER PAN BUS LINES

    Mr. Crean. Mr. Chairman, members of the Committee, my name 
is Christopher Crean, and I am the Director of Safety and 
Security for Peter Pan Bus Lines.
    First and foremost, I would like to thank you for the 
opportunity to appear today and discuss the issue of bus 
safety. For the past 17 years, I have had the pleasure to work 
for Peter Pan Bus Lines, which is located in Springfield, 
Massachusetts. Peter Pan was founded in 1933 and has for 74 
years made safety a priority in its operations. Because or that 
commitment, I have been an active member of the American Bus 
Association, Bus Industry Safety Council, and an associate 
member of the Commercial Vehicles Safety Alliance, and a board 
member for the local chapter of the National Safety Council.
    I know we are here today to discuss bus safety. It is quite 
simple. If we want to improve bus safety, then let's simply 
begin enforcing the regulations and funding the enforcement 
effort. New entrant audits must be conducted within a time 
frame that FMCSA has laid out. New entrants must be held 
accountable for failure to implement and comply with the 
regulations.
    The safety audit process does very little, in my opinion, 
to take potentially unsafe carriers off the road. If a carrier 
should fail a safety inspection or an audit, the license of 
that carrier should be suspended or revoked until that carrier 
comes into full compliance.
    Secondly is the issue of curbside carriers, which I am sure 
you have heard a lot about. These carriers offer low cost 
service at the expense of public safety. These carriers operate 
daily in defiance of Federal and State law. FMCSA has initiated 
some enforcement action against these carriers, but it is has 
been very much an uphill battle. When these carriers are 
subject to enforcement action, they simply change their name, 
their registration, their address and DOT number, and continue 
operation with a different paying scheme and a different name.
    FMCSA must immediately become aggressive in the auditing 
and enforcement of all curbside carriers. As a matter of fact, 
I would say that FMCSA should treat curbside carriers in the 
same manner they would treat me if my company was not in 
compliance with FMCSA guidelines.
    Lastly, please let me mention the issue of SafeStat, a tool 
designed for both the consumer and the enforcement community to 
identify unsafe carriers. SafeStat does a great job identifying 
unsafe carriers. Unfortunately, it ends there. Carriers 
identified by SafeStat as unsafe are allowed day to day to 
continue their operation without even a hint of possible 
enforcement action.
    I ask, what is the point of identifying an unsafe carrier 
if nothing is going to happen to that carrier? These carriers 
know nothing will be done and that is why accidents will happen 
and public safety will continue to be jeopardized. As a carrier 
who each and every day puts his best foot forward, as one who 
makes sure that his carrier is so safe that even his family and 
friends will ride on it, I say enough--enough with the carriers 
who violate the law; enough with the carriers who jeopardize 
the lives of thousands of innocent individuals whose only fault 
is sharing the highway with them. I say enough. These carriers 
must comply with the law. We must close the gap, and we must 
end the free ride for these carriers.
    Gentlemen, Mr. Chairman and Members of the Committee, thank 
you for the opportunity to speak. I am open to any questions. 
Thank you.
    Mr. DeFazio. Thank you.
    Mr. Scott?

      TESTIMONY OF BRIAN SCOTT, PRESIDENT, ESCOT BUS LINES

    Mr. Scott. Thank you, Mr. Chairman.
    Chairman DeFazio, Mr. Duncan, members of the Committee, I 
appreciate your calling this hearing today and the opportunity 
to represent the bus and motorcoach industry in my testimony. 
This Committee has a long and distinguished record of promoting 
safety on the roadways and lies at the center of our Nation's 
public discourse on the best practices to achieve safe and 
efficient travel.
    On behalf of the United Motorcoach Association, it is my 
goal to provide the Committee our perspective on the factors 
that have contributed to our industry's venerable safety record 
and our goal of improving that record.
    We are all here with heavy hearts today, Mr. Chairman, as 
this hearing comes on the heels of the tragic accident in 
Atlanta that killed seven and injured many more. On behalf of 
the UMA, our thoughts and prayers are with the families of 
those affected.
    My name is Brian Scott. I am President of Escot Bus Lines 
of Largo, Florida. I also currently serve as the Chairman of 
the United Motorcoach Association, the leading national 
association for bus and motorcoach operators. Our company was 
founded in 1983 by my parents, Louis and Diane Scott. We are 
proud to say that Escot Bus Lines remains a local family owned 
and operated company serving the Tampa Bay and Central Florida 
communities for nearly a quarter century.
    Our family's commitment to safety is responsible for our 
growth from a two-bus company in 1983, to a medium size 
business by our industry standards. We enjoy the highest safety 
ratings available from the U.S. Department of Transportation 
and the United States Department of Defense.
    Today, my sister Pam and I run the business, while my 
parents remain involved as advisers on our board of directors. 
We operate 45 buses and motorcoaches, conduct over 500,000 
charter passenger trips, and 1.7 million employee shuttle 
passenger trips annually.
    Much like Escot Bus Lines, the bus and motorcoach industry 
represents a true small business success story, where most 
companies are family owned and multi-generational. There are 
nearly 3,600 bus and motorcoach companies in our Nation, 
operating nearly 40,000 motorcoaches, providing 631 million 
passenger trips annually. The average company employs 46 
individuals. Each bus and motorcoach represents an industry 
average of 4.23 employees, and 75 percent of the industry 
consists of fleets of fewer than 100 units. Indeed, nearly one 
half of the industry consists of fleets 24 units or fewer.
    To meet customer expectations of safety and comfort, the 
bus and motorcoach industry has been quick to adopt safety 
advancements such as anti-lock brake systems, engine brakes, 
and high back seats that have become standard due to the 
industry's rapid adoption. These safety advancements continue 
to be adopted, while the purchase price of a motorcoach has 
increased rapidly. Where a motorcoach cost approximately 
$175,000 20 years ago, today's modern motorcoach routinely tops 
$425,000.
    Today, technologies such as global positioning systems 
monitor drivers' behavior in ways unimaginable a decade ago. 
Cameras monitor and record driver and passenger activity, as 
well as the immediate environment. Electronic tire monitoring 
systems reduce the likelihood of tire failures and fires, while 
fire suppression systems are increasingly being utilized.
    Our industry prides itself on an excellent safety record, 
but despite averaging fewer than 10 fatalities each year, one 
fatality is one fatality too many. Safety isn't just a 
management function with our business. It is our business.
    If our customers lose confidence in our ability to 
transport them, we lose our business. There is a direct 
correlation between safety and success. The United Motorcoach 
Association offers the public a detailed, online consumer guide 
to purchasing motorcoach services, and a student's guide in an 
effort to aid the Nation's consumers in selecting a safe, 
reliable bus and motorcoach operator.
    The UMA, along with offering routine safety-related 
assistance in seminars at our annual conventions, hosts an 
annual safety management seminar held at the NTSB's academy in 
Ashburn, Virginia, which has exceeded its capacity every year.
    Earlier this year, UMA's board of directors announced the 
launch of the Bus and Motorcoach Academy, which is accredited 
by the College of Southern Maryland. This training academy will 
serve as a source of basic operational knowledge for owners and 
management, along with courses that one has the knowledge and 
skills of our industry's most valuable assets, which are our 
drivers.
    UMA also works with the Bus Industry Safety Council and the 
Commercial Vehicle Safety Alliance in continuing efforts to 
develop and propagate safe operating practices. For new 
operators coming into the fold, UMA also has a new operator's 
guide, which goes over all the details that an operator needs 
to know in order to be a safe and profitable operation.
    In conclusion, the over the road intercity bus industry 
remains a vital component of our Nation's economy, with 
services affording access to jobs, education and health care. 
Our industry is a critical component to our Nation's travel and 
tourism industry. The bus and motorcoach industry is 
represented by the United Motorcoach Association and stands 
ready to assist Congress and the National Highway 
Transportation Safety Administration in the further development 
and implementation of safe practices and equipment, grounded in 
sound science and testing, that improves the safety for our 
Nation's 690 million annual over the road intercity bus 
passengers.
    Thank you, Mr. Chairman, Mr. Duncan and Members of the 
Committee your indulgence. Again, I am honored to testify 
before this Committee and would welcome any questions.
    Mr. DeFazio. Thank you.
    Mr. Hamilton?

    TESTIMONY OF BRUCE HAMILTON, PRESIDENT/BUSINESS AGENT, 
         AMALGAMATED TRANSIT UNION NATIONAL LOCAL 1700

    Mr. Hamilton. Thank you, Mr. Chairman and Members of the 
Committee. My name is Bruce Hamilton. I am the President of 
Amalgamated Transit Union National Local 1700, representing 
Greyhound employees nationwide.
    On behalf of our members and all ATU members who operate 
intercity bus service, including those at Peter Pan Lines, I am 
very grateful for your interest in intercity bus safety, and 
for the opportunity to testify.
    Today, I will briefly touch on safety issues of concern to 
the ATU, including the need for increased enforcement of 
existing Federal standards, vehicle safety standards, and the 
issues of driver fatigue, and of public security.
    The first issue is, and has been, one of primary concern to 
the ATU. That is the emergence of numerous low cost carriers 
that skirt Federal safety regulations and other things. Since 
Mr. Crean of Peter Pan has done such a good job of going into 
that issue, I will just say one thing, which is that there is 
simply no excuse for continuing to allow these unsafe companies 
on the road. We must be more aggressive with the enforcement of 
safety and other regulations, and the penalties must be 
significant enough to deter violations.
    On a related issue, steps must be taken to ensure that 
these and other bus companies employ drivers that meet the 
English language requirements of Federal regulations and other 
Federal motor carrier safety regulations that a commercial 
motor vehicle driver must be able to read and speak English 
sufficiently to converse with the general public, to understand 
highway traffic signs and signals, to respond to official 
inquiries, and to make entries on reports and records.
    Despite this, some States actually allow applicants for a 
commercial driver's license to take the CDL test in a foreign 
language.
    Driver fatigue is another issue that has often been cited 
as a contributing cause of bus accidents. Despite this, the DOT 
in the recent past has proposed increasing the number of hours 
that an intercity bus operator is allowed to drive. The ATU 
urges this Congress to oppose any proposals to increase the 
hours of service for bus drivers. In fact, we would support 
certain further restrictions on those hours in order to reduce 
driver fatigue and to reduce accidents.
    I strongly believe that the best way to reduce drive 
fatigue is to increase driver wages and benefits. Decline in 
wages in the industry has put pressure on drivers to work 
longer hours in order to make a living. By passing the Employee 
Free Choice Act, Congress can make it possible for all bus 
drivers to bargain collectively for better wages, benefits and 
working conditions, which will improve safety. I want to thank 
the Members of this Committee who voted recently to pass this 
important legislation. I urge you to call upon your colleagues 
in the Senate to do the same.
    On the issue of vehicle safety standards, tire blowouts and 
fires, which have previously been discussed, are big, big 
concerns for the members I represent. We need the better 
reporting that has been discussed of any of these incidents. We 
need more research on the causes of blowouts and fires in order 
to prevent them. We also need research on issues such as seat 
belts and airbags and window glazing to determine if there are 
improvements that can be made to current vehicle standards that 
could save lives.
    Another top concern for the industry and my members is 
security. The ATU strongly supports legislation introduced by 
the leadership of this Committee that would provide significant 
funding for both operating and capital expenditures to enhance 
the security of our Nation's intercity bus network. While the 
threat of terrorism against our industry is real and must be 
addressed, we must also take measures to protect bus drivers 
from everyday assaults.
    In this realm, we urge Congress to clarify provisions of 
the Federal criminal code to ensure that crimes against 
intercity bus employees are treated the same as crimes against 
transit, school bus, and charter bus operators.
    Further, we must revise incident reporting requirements for 
intercity bus operations to include assaults against employees. 
This will allow us to determine the extent of the problem and 
to identify measures to address it.
    Finally, I want to urge the Committee to adopt a national 
ground transportation policy that will ensure that all American 
citizens in urban and rural communities alike have access to 
safe and affordable transportation, especially in emergency 
situations. Since deregulation of the industry, we have seen 
the abandonment of service to thousands of communities across 
the U.S. In many cases, Greyhound was the last remaining means 
of public transportation. Now, citizens in these communities 
are left without necessary public transportation.
    The tragic events of 9/11 and of Hurricane Katrina 
demonstrate the importance of having buses available across the 
U.S. to safely transport people out of harm's way. A strong 
national bus program would meet this need.
    Again, thank you for the opportunity to testify. I would be 
happy to take questions.
    Mr. DeFazio. Thank you, Mr. Hamilton.
    Ms. Gillan?

 TESTIMONY OF JACQUELINE S. GILLAN, VICE PRESIDENT, ADVOCATES 
                  FOR HIGHWAY AND AUTO SAFETY

    Ms. Gillan. Thank you very much.
    Good morning, Chairman DeFazio and Representative Duncan. 
Thank you very much for having these hearings. I am Jackie 
Gillan, Vice President of Advocates for Highway and Auto 
Safety, a coalition of consumer health, safety, and insurance 
companies working together to improve safety on our highways.
    Motorcoach safety is a serious concern for anyone who uses 
this growing and affordable mode of transportation. 
Unfortunately, when it comes to motorcoach safety, consumers 
are forced to travel wearing a blindfold.
    The recent bus crash involving a college baseball team 
points out several major issues that need to be examined in 
this crash, such as the role highway design may have 
contributed to the confusion of the bus driver; also the design 
and structure of motorcoaches lacks state of the art safety 
systems that could better protect occupants in a serious crash. 
For example, many motorcoach fatalities occur because occupants 
are ejected from the vehicle because of a lack of seat belts 
and advance glazing on windows, and weak bus roofs.
    Finally, there are the issues I will address this morning 
relating to the chronic and continuing failures of the Federal 
Motor Carrier Safety Administration to exercise its legal 
authority to regulate the safety of the motorcoach industry and 
protect the public.
    Motorcoaches with the capacity to carry up to 58 people and 
log large numbers of vehicle miles every year are really the 
commuter airlines of the highways. Yet motorcoach safety is not 
being held to the same high standards as aviation safety, both 
for operators and for vehicle safety oversight.
    Let me briefly highlight some of these failings. First, 
there is no reliable information on State bus inspection 
programs. Even though Congress passed the law in 1980 requiring 
the Secretary of Transportation to prescribe standards for 
annual or more frequent inspection of commercial motor 
vehicles, including motorcoaches, as of 2001 only 25 of the 50 
States had approved periodic bus inspection programs, and that 
was the last year we could get information off the FMCSA web 
site.
    I am pleased this morning that Administrator Hill mentioned 
that beginning this year, FMCSA will require every State to 
have a bus inspection program. That is really 20 years overdue.
    FMCSA relies on its SafeStat system to identify which motor 
carriers present the highest risks of having crashes and of 
committing motor carrier safety regulatory violations, but this 
is a very flawed system. Recent evaluations by the DOT 
Inspector General and Oak Ridge National Laboratory criticized 
the system for not being objective. Many motor carriers are 
mistakenly identified as high-risk safety risks, when they are 
not. Many motor carriers fail to be identified as high-risk 
safety risks when they are. And the data used is completely 
unreliable.
    Third, FMCSA conducts too few compliance reviews and too 
many of these compliance reviews are out of date. FMCSA is 
required by law to assign safety ratings to all motor carries, 
but has never come close to that goal. In 2005, out of the 
nearly 20,000 motor carriers transporting passengers with the 
agency, only 547 compliance reviews were conducted. Executive 
Coach Luxury Travel, the motorcoach company involved in the 
recent crash in Georgia, had a satisfactory rating, but that 
was assigned on January 31, 2001. We believe that a safety 
rating assigned more than six years ago is not a reliable guide 
to a motor carrier's safety quality. In fact, in their safety 
rating that was assigned, one of the four safety evaluation 
scoring areas was left blank.
    My testimony includes a sample that we did of nine States, 
and looking at the compliance reviews and safety ratings for 
those motorcoach companies. Oregon had 23 motorcoach companies 
register in the State. Of these, 12 had satisfactory ratings 
within the last five years, but not one of the 12 motorcoach 
companies with a satisfactory rating had scores in all four 
safety evaluation areas. Oregon still has one company that got 
a safety rating back in 1986, and five motorcoach companies 
registered in the State were not rated at all.
    In Tennessee, we found 78 registered motorcoach companies, 
and one-third were not rated.
    Another important issue is there are no training 
requirements for the operator of a bus responsible for the 
lives of 55 people on board. There is no certification needed 
to apply for an entry level CDL, and no instruction is needed 
to seek and gain the additional special endorsement to operate 
a motor coach in interstate commerce.
    Other areas that will affect motorcoach safety are clearly 
the issue of the pilot program, when we see NAFTA and CAFTA bus 
operations in the United States. I won't discuss that, but it 
is certainly dealt with in my testimony. There are still 
serious problems with motorcoach passenger companies coming 
across the border.
    At the end of my testimony, we have many conclusions and 
recommendations. Clearly, every State needs to have a bus 
inspection program. We need to accelerate the reform of data 
reporting. We need to make sure that compliance reviews are 
done. No motorcoach company should receive a satisfactory 
rating unless all four safety evaluation areas have been 
completed.
    We also need to ensure that there is adequate entry level 
and advanced motorcoach driver training, and that we need to 
ensure that the CAFTA motor carriers that will be coming into 
the United States are subject to the Section 350 requirements 
for Mexico-domiciled motor carriers.
    And lastly, we need to do a lot more to improve Federal 
motor vehicle safety standards for bus and motorcoach 
crashworthiness, especially to prevent unnecessary deaths and 
injuries due to occupant ejection.
    Thank you very much.
    Mr. DeFazio. Okay, thank you.
    Just following up on your testimony, so you are saying that 
if I had a commercial driver's license, and I applied to a 
carrier, there is no training required on the bus that I might 
operate?
    Ms. Gillan. No.
    Mr. DeFazio. None?
    Ms. Gillan. If you get your CDL, and you wish to drive a 
motorcoach, to get that additional endorsement on your CDL to 
allow you to do that, it is a multiple choice test. There is no 
skills requirement. DOT issued a rule on entry level driver 
training some years ago. It was so weak that Advocates and 
other safety groups sued. The U.S. Court of Appeals unanimously 
overturned it. Two years later, they still have not issued any 
basic skills requirements for entry level CDLs or for 
motorcoach operators.
    Mr. DeFazio. So what do they say? Are they working on it?
    Ms. Gillan. I don't know. I guess I should have planted 
that question to find out. We are certainly anxious to find 
out.
    Mr. DeFazio. Okay. The Committee will follow up on that.
    Mr. Hamilton, do you want to tell us what your members, 
what kind of training they have at Greyhound?
    Mr. Hamilton. At Greyhound, and also at Peter Pan Lines, we 
are very proud of the training program that we have. It is peer 
training. The experienced drivers train the new applicants. It 
is a very extensive program.
    Mr. DeFazio. Do they actually drive the vehicles?
    Mr. Hamilton. They actually drive the vehicles. When I 
became a Greyhound bus driver 35 years ago, the first thing 
that we did was go out and drive a bus in a parking lot in 
Minneapolis. There is a lot of newfangled stuff that they use 
these days that we didn't have when I first was brought on. But 
it took four weeks, with the first just driving in areas that 
could suffer no harm, and then over the road, and also 
extensive training dealing with passengers as well.
    Mr. DeFazio. Okay. Do either Mr. Crean or Mr. Scott want to 
address that issue?
    Yes, Mr. Scott?
    Mr. Scott. We have a 40 hour training class that we put all 
new hires through, which includes classroom and behind the 
wheel programs.
    Mr. DeFazio. Great. And we have already heard about Peter 
Pan?
    Mr. Crean. Yes, but I would just add to that. Our is a six 
to eight week training program. They do drive the bus before 
they get out there. They are with a senior instructor. In 
addition to operating the coach, there are other factors that 
we also throw in there, and that is the onset of safety, 
security, customer relations, and most importantly Americans 
with disabilities. They go through that amount of training as 
well.
    Again, we are in the people business. We are into 
delivering customer service. So in a lot of aspects, our driver 
is similar to a pilot. He needs to know how to interface and 
react with his passengers in the event of an emergency, and how 
to make sure that customer comes back again and rides our 
coach.
    Mr. DeFazio. Mr. Crean, in your testimony I found something 
interesting. It just sort of rang a bell with me. Many years 
ago, I took a degree in gerontology and worked in counseling 
gerontology. What I found was an interesting phenomena, which 
at the nursing home where I worked, which was a very 
prestigious nursing home in the San Francisco area, the 
inspectors seemed to stay around a really long time.
    So I asked some of the senior staff, I said, are we having 
problems? They said, oh, no, this is just really kind of a 
pleasant environment for them. They really don't want to be out 
in some of those holes in Oakland and other places where there 
are unbelievable problems that are going to cause them a lot of 
work. It is not a pleasant place to be.
    I found in your testimony where you say that larger 
carriers end up becoming the victim of increased compliance 
reviews when the so-called unsafe carriers have an accident. Is 
that really your experience? Suddenly, you haven't had the 
accident, you have a training program, but suddenly the 
inspectors are showing up at your operation instead of putting 
more scrutiny on new entrants and/or these other lower budget 
kind of operators.
    Mr. Crean. Yes. Consider the fact that I am on the East 
Coast and we have a large number of curbside carriers. Those 
curbside carriers make the news quite often as a result of 
accidents, operating under unsafe conditions, and so forth. So 
as a result of that, we see an increase in roadside 
inspections.
    Well, that increase in roadside inspections basically 
affects myself and Greyhound, who operate on those roads each 
and every day. We certainly don't operate routes to avoid those 
inspection sites. We go through them.
    These smaller carriers who have one or two buses, the 
chances of seeing a roadside inspection are slim to none. The 
only way they are going to catch up with them by----
    Mr. DeFazio. Do they stop every bus when they do a roadside 
inspection?
    Mr. Crean. Not every bus. It depends on what they are 
looking for.
    Mr. DeFazio. So if they saw a Peter Pan Bus come, they 
could say, well, we know Peter Pan is a high end operator; we 
are going to let them go by; we are going to wait for one of 
these low end operators to come rattling up blowing blue smoke 
out the exhaust.
    Mr. Crean. Well, Mr. Chairman, that is if that low end 
operator takes that route. These roadside inspections are on 
major highways. There are other ways to avoid those inspection 
sites, and some go to the trouble to purposely avoid those 
inspection sites. So if one of those individuals flips a bus or 
is involved in an accident, we see the publicity of increasing 
inspections. What happens is I see a large number of 
inspections show up at our South Station Terminal let's say to 
do safety checks on the very drivers who, before they are even 
dispatched, their logs, license and so forth are checked. We 
are not going to allow them to operate should they not be.
    So really, we are inspecting the people who don't need the 
inspecting. We need to go deeper into the trenches and start 
looking at these other carriers.
    Mr. DeFazio. So we need a little better intel on the part 
of where they are targeting their inspections, like really 
trying to track down some of these curbside folks and catch 
them as they are beginning a route, before they can disperse. 
Are they using CBs or something to communicate with each other 
to find out where the inspections are at so they can avoid them 
by changing routes or those sorts of things? Or are the 
inspections always in the same places on the same routes, so 
they know if we just stay off that highway, it is very unlikely 
we will get inspected?
    Mr. Crean. Most of the inspections are usually in the same 
places. We have pushed FMCSA to do destination inspections, 
such as at amusement parks or so forth. That is where you are 
catching a lot of these smaller carriers. But again, in some 
instances these smaller carriers will drop their people off and 
leave just to avoid the inspection. But those are the people 
they need to get to. Those are the people they need to look at.
    In my feeling, to walk into a company and look at a file or 
a vehicle within the first 10 or 15 minutes, you are going to 
know whether that company has a safety program or not, first of 
all, by introducing them to a safety person. Companies that you 
walk in that don't have driver files, no drug and alcohol 
program, it is pretty obvious and the paint is on the wall that 
there are no safety standards. That place just simply operates 
for a profit and a profit only.
    Mr. DeFazio. You said one other thing that caught my 
attention, SafeStat. You said maybe SafeStat can identify 
people, but there is no follow up or enforcement once we have 
identified these problem people.
    Mr. Crean. Yes. If you go online to the SafeStat site, you 
can see the various curbside carriers who have been inspected, 
whose safety rating is extremely high [sic], which pretty much 
characterizes them as an unsafe carrier, yet they continue 
operation day to day, and pretty much put the rest of us in 
jeopardy.
    There is no action taken, and there is no consequence. What 
is the point of complying if there really is no consequence? We 
see the point of complying because we need to comply. It makes 
sense, and it is good all around business. But for other 
companies, it is more just seen as a cost of doing business, 
and safety should be looked at. We are pretty much the other 
way, concerned about the innocent lives of thousands of people 
each and every day who travel on the highway. Quite honestly, 
some of these carriers really don't care.
    Mr. DeFazio. Ms. Gillan, you talked about receiving a 
satisfactory rating only if you are satisfactory in every 
category. I think that goes to a line of questioning that I was 
pursuing with the Administrator, where although your drivers 
may be unsatisfactory, if they didn't go out and look at your 
equipment, which they don't, but they rated it as satisfactory 
because the paperwork said it was maintained, then we wouldn't 
get an unsatisfactory rating for that company. Is that what you 
are trying to get at here?
    Ms. Gillan. Yes, absolutely. There are four categories that 
they have to rate them on, and yet if you look at the 
satisfactory ratings, for instance, in Oregon and with the 
company that was involved in the crash, many of the boxes are 
empty. So then you have to ask yourself, how do you get a 
satisfactory rating if these boxes are left empty, such as in 
the case of the company involved in the crash, where safety 
management, that box was left empty.
    So how can you get a satisfactory rating if there is 
nothing in there indicating that your safety management systems 
and procedures are out adequate.
    Mr. DeFazio. Okay. All right.
    Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman.
    In all these areas, what we need is balance and common 
sense. I say that from this standpoint. Your industry is a 
little bit unusual in that many, many industries are just going 
more and more towards the big giants. Any industry that is very 
highly regulated, first the little guys go out of business, and 
then the medium sized ones, and the industries end up in the 
hands of a few big giants. And you still have a lot of small 
businesses in your industry.
    Now, a lot of times, the biggest companies want more 
regulations so that the little guys will be run out, and the 
regulators like more regulations because it gives them more 
power. Plus, it is a lot easier for a Government regulator to 
inspect one large company than it is to inspect 100 small 
companies.
    But there are problems with that. First, you hurt a lot of 
small businesses. Secondly, you drive up the price of whatever 
service is being provided. I mean, I can give you many 
examples, but in 1978, there were 157 small coal companies in 
East Tennessee. Then we opened up an Office of Surface Mining 
there, and now there are no small coal companies.
    I am wondering, Mr. Crean, do you believe that there are 
not enough safety regulations that FMCSA should institute more 
safety regulations?
    Mr. Crean. No, sir. There are safety regulations. They just 
need to start enforcing the regulations. The only clause I will 
put to that is there needs to be some bite in it. There is no 
reason to comply if there is no consequence. For some of these 
carriers, there is little.
    Mr. Duncan. How much does it cost your company to comply 
with the ADA regulations? Do you have any idea?
    Mr. Crean. Well, it is an additional cost on our vehicles 
of about $30,000 to $35,000 to have that bus equipped with a 
lift. In addition to that, there is additional training for the 
driver that costs us about $8,000 to train a driver. We hire 
anywhere from 20 to 30 drivers per year, and we buy about 10 to 
15 buses per year.
    Mr. Duncan. Mr. Scott, besides the regulations, are there 
other pressures on your company to have safe buses and safe 
drivers?
    Mr. Scott. Well, first of all, I would agree with Mr. Crean 
here that there are regulations that are on the books that I 
believe are effective regulations, but they need better 
enforcement. I believe that FMCSA needs more resources to be 
able to do that.
    I also agree that destination inspections is a great way to 
inspect buses because Disney World is a good example. For 
instance we being located in Florida, you can go there on any 
given day and probably see 100 buses there. So they know where 
they go, and that is the best place to get them.
    But the biggest pressure I would say on our business is our 
own success, to continue to succeed. We have been in business 
since 1983, and I know Peter Pan Bus Lines and Greyhound as 
well have long, distinguished histories. You don't get that way 
by doing things unsafe, whether or not FMCSA has ever been in 
to visit you or not.
    You have to perform and your customers aren't going to ride 
with you if you don't provide safe equipment, training drivers, 
uniformed drivers, clean equipment, and on-time service. So 
really it is your own policies and procedures and the standards 
that you set for yourself, if you want to be successful in this 
bus industry or not.
    Mr. Duncan. I will add to that. I am very pro-business, but 
unlike some of them, I decide I am pro-trial lawyers to a 
certain extent, too, because I can tell you that that is a 
tremendous pressure or incentive to operate a safe company. You 
certainly don't want to be sued, do you?
    Mr. Scott. No, not at all. We obviously carry the highest 
levels of financial responsibility of anybody on the road.
    Mr. Duncan. I was going to ask you about that. I understand 
from some of these small bus companies that their insurance 
rates have gone up tremendously since 9/11. Have your rates 
gone up as well? Would you give us some idea roughly of what we 
are talking about?
    Mr. Scott. Prior to 9/11, I was paying $3,800 per bus 
annually for $5 million worth of coverage. Today, I am paying 
closer to $10,000.
    Mr. Duncan. About $10,000 per bus?
    Mr. Scott. Right.
    Mr. Duncan. So it has just about tripled.
    Mr. Scott. Pretty close to it, yes. And many carriers 
choose to carry additional umbrella policies as well, which we 
also do that, just to ensure that we are providing adequate 
levels of protection for our customers and the traveling 
public.
    Mr. Duncan. And it has gone up that much in years of 
relatively low inflation. We have probably had about 20 percent 
at the most inflation since that time, 15 percent to 20 
percent.
    In your testimony, you said you don't believe that seat 
belts would make motorcoaches safer. Would you explain to me 
why you say that?
    Mr. Scott. They need to be tested. Honestly, it really 
can't be said at this point whether they would make 
motorcoaches safer or not. I think that without adequate 
testing and without science and statistics to support the 
proven safety of seat belts in motorcoaches, I think it is a 
dangerous presumption to move forward with an untested 
technology, when the safety of our industry is as good as it 
already is.
    Now, everybody will agree that one fatality is one fatality 
too many, but there are unintended consequences that can 
sometimes arise when you do things that are not tested. The 
margin of error for failure on the side of improving motorcoach 
safety with an untested technology is greater than the margin 
for improvement.
    I can say that this industry, if there is the technology 
out there that is proven and tested to save one life, this is 
an industry that will get behind it. There is no question about 
that. Our future and our lives are built on that. But like I 
have said, when we have an average of 10 fatalities a year, 
which one is too many, we better make sure that it works, to 
make sure that we are truly adding to the safety, and not 
detracting from it.
    Mr. Duncan. Who are these curbside operators, Mr. Hamilton, 
or any of you? Are they immigrants, legal or illegal?
    Mr. Hamilton. There are all sorts of curbside operators. In 
the Northeast primarily, they started out running service from 
Chinatown to Chinatown in New York and Boston, New York and 
Philadelphia, New York and Washington, DC.
    I think that there has been a lot of investigation about 
who they are. They are obviously very, very well funded.
    Mr. Duncan. The Chairman said organized crime is involved. 
Do you that is true?
    Mr. Hamilton. That is the common belief. I certainly can't 
prove that, but they are obviously very well-heeled.
    Mr. Duncan. Does your union, besides whatever training 
these companies might give to their drivers, does your union do 
things to encourage drivers to be safer?
    Mr. Hamilton. Yes. For one thing, we negotiate with 
Greyhound. The rules that we have negotiated with them exceed 
the Federal standards in hours of service and, well, I am not 
sure how many other areas, but also the union exists to make 
sure that our drivers are protected. So we hold the company to 
a very, very high standard.
    Mr. Duncan. Ms. Gillan, do you agree with the Chairman of 
NTSB when he said that he thinks this is the safest form of 
transportation?
    Ms. Gillan. I think that motorcoach transportation is safe. 
However, FMCSA's jurisdiction is over all passenger-carrying 
carriers. So while I think that the statistics and data on 
motorcoach transportation look good, that is not always the 
case for some of the smaller buses, the jitneys and some of the 
other carriers out there that are transporting passengers.
    I do think, though, that the recent crash of the baseball 
team points out that there is certainly a lot more that we 
should be doing. As I said in my statement, intercity 
motorcoach transportation is really becoming almost like our 
commuter airlines on the highways, in that, as my testimony 
points out, I think that there are some really serious flaws 
and shortcomings in how the Federal Motor Carrier Safety 
Administration is regulating and overseeing the safety of this 
industry, and there is a lot of room for improvement.
    Mr. Duncan. Well, I will just get this off my chest while I 
can, but these insurance companies are a little bit of a pet 
peeve of mine because, I mean, they have this myth going on 
medical malpractice. I read where on medical malpractice, the 
amount of judgments in the last five years has gone up 4.9 
percent, while the premiums went up 131 percent, I think it 
was.
    And then when you tell me that your insurance premiums on 
the buses have gone up from $3,800 per bus, Mr. Scott, to 
$10,000 per bus, in an industry where the statistics just don't 
justify that at all. And all these Government departments and 
agencies are throwing out the word security and this greatly 
exaggerated threat of terrorism to get more funding. And these 
insurance companies are just doing greatly unjustified 
increases in premiums. It is just totally ridiculous, really.
    But at any rate, Mr. Chairman, that is all I have. Thank 
you for calling this hearing.
    Mr. DeFazio. Thank you, Representative Duncan. I couldn't 
agree with you more on the insurance issue. That really caught 
my attention. We had the airline CEOs in and had them all lined 
up, and they were talking about the need to continue the 
terrorism risk insurance. And then they talked about how much 
their general liability had gone up. It had gone up 400 
percent.
    I said, well, if the Government is assuming the terrorism 
risk, and there haven't been any major crashes, why would your 
general liability have gone up by 400 percent? And so I asked 
them, and this is where I am going to ask the gentleman from 
Tennessee, if they would advocate for my bill to take away the 
antitrust exemption, which the insurance industry enjoys. I 
have a bill that I will bring to the gentleman's attention on 
that, because you can't collude with Peter Pan, and Greyhound 
can't collude with Peter Pan and set the market. You'd go to 
jail.
    But the insurance industry can and does legally collude, 
and say, hey look, if you write lower bus policies, you might 
take some of my business. How about we both just keep our 
clients? We will keep our clients, you keep yours, but let's 
jack it up 50 percent. Okay, what a deal. They can do that.
    Just to frame it as a question to the two operators, have 
they given you any rationale about, boy, there have been some 
huge settlements here. You won't believe our losses in the line 
of bus insurance, and that is why it has gone up 300 percent. 
Have you heard from your carriers along those lines?
    Mr. Scott. I think what you find in bus insurance these 
days is it is true that judgments have gone up. Where typically 
in a $5 million bus policy, that working layer of insurance was 
probably zero to $100,000 or in there. And now over the last 10 
years, you have seen that expand to include that first $1 
million is the working layer. And now you are seeing some cases 
that it is going beyond that.
    So I do believe that judgments have gone up. But I do 
believe that after 9/11, the markets went down, and insurance 
companies need to make there money somewhere, and if they are 
not making it in the market, bus insurance is an attractive 
industry for insurance companies that don't understand the bus 
market because there are large dollars in premiums there. So 
they can look at that as somewhat of a cash cow and say, hey, 
we can write bus insurance and collect a lot of premium, but 
they don't understand how to manage bus claims.
    That is when some of them really get a pretty good licking 
and will pull the market out, and that allows for a lot of 
market swings in terms of fluctuations in insurance dollars. 
But since 9/11, it went up dramatically. It seems to have 
leveled off. I haven't seen any significant increases in the 
last two years. It does seem to have leveled off.
    Mr. DeFazio. I can't remember, was it Mr. Crean who talked 
about the destination inspections? Or was it you, Mr. Scott? 
You say you know where, say, these rogue companies are going, 
and that is the place to get them. Maybe it was you, Mr. Scott, 
that talked about it.
    Mr. Scott. Well, just to use the example of Florida. If a 
bus is coming to Orlando, you can bet it is going to be going 
to one of the theme parks at some point in time. You have 
Disney World, Universal Studios, MGM Studios. You have all of 
these theme parks there. That is the best place to do them.
    A roadside inspection where you are taking a bus off of the 
highway loaded with passengers is not a very attractive 
situation for the passengers or FMCSA or the bus operator. But 
when the passengers are at their destination, the bus most 
oftentimes is going to be sitting there for a good few hours. 
That is the best time to do it.
    And if there is a situation where the bus is going to be 
put out of service, there is an opportunity to replace it, 
whereby the passengers are not inconvenienced.
    Mr. DeFazio. That is an excellent suggestion. Mr. Hill is 
no longer here, but we will make certain that perhaps they need 
to just circulate their folks down into Chinatown or wherever, 
and find out where the buses are headed, and then say, they are 
headed to Charles Street in Boston. Why don't you meet them 
there at 6 o'clock?
    I think that seems to me an excellent suggestion on how we 
might be able to, as opposed to setting up on major highways 
with the complications of having passengers on board, and only 
catching the companies that follow a fixed route and aren't 
trying to evade them. It seems to me to be a little more 
nimble, I guess. That is an excellent suggestion.
    I want to thank the panel. I think you have raised a number 
of issues here that need to be addressed. This Committee will 
continue to be persistent in this area.
    Thanks very much for your testimony and we appreciate your 
time.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 34790.007
    
    [GRAPHIC] [TIFF OMITTED] 34790.008
    
    [GRAPHIC] [TIFF OMITTED] 34790.009
    
    [GRAPHIC] [TIFF OMITTED] 34790.010
    
    [GRAPHIC] [TIFF OMITTED] 34790.011
    
    [GRAPHIC] [TIFF OMITTED] 34790.012
    
    [GRAPHIC] [TIFF OMITTED] 34790.013
    
    [GRAPHIC] [TIFF OMITTED] 34790.014
    
    [GRAPHIC] [TIFF OMITTED] 34790.015
    
    [GRAPHIC] [TIFF OMITTED] 34790.016
    
    [GRAPHIC] [TIFF OMITTED] 34790.017
    
    [GRAPHIC] [TIFF OMITTED] 34790.018
    
    [GRAPHIC] [TIFF OMITTED] 34790.019
    
    [GRAPHIC] [TIFF OMITTED] 34790.020
    
    [GRAPHIC] [TIFF OMITTED] 34790.021
    
    [GRAPHIC] [TIFF OMITTED] 34790.022
    
    [GRAPHIC] [TIFF OMITTED] 34790.023
    
    [GRAPHIC] [TIFF OMITTED] 34790.024
    
    [GRAPHIC] [TIFF OMITTED] 34790.025
    
    [GRAPHIC] [TIFF OMITTED] 34790.026
    
    [GRAPHIC] [TIFF OMITTED] 34790.027
    
    [GRAPHIC] [TIFF OMITTED] 34790.028
    
    [GRAPHIC] [TIFF OMITTED] 34790.029
    
    [GRAPHIC] [TIFF OMITTED] 34790.030
    
    [GRAPHIC] [TIFF OMITTED] 34790.031
    
    [GRAPHIC] [TIFF OMITTED] 34790.032
    
    [GRAPHIC] [TIFF OMITTED] 34790.033
    
    [GRAPHIC] [TIFF OMITTED] 34790.034
    
    [GRAPHIC] [TIFF OMITTED] 34790.035
    
    [GRAPHIC] [TIFF OMITTED] 34790.036
    
    [GRAPHIC] [TIFF OMITTED] 34790.037
    
    [GRAPHIC] [TIFF OMITTED] 34790.038
    
    [GRAPHIC] [TIFF OMITTED] 34790.039
    
    [GRAPHIC] [TIFF OMITTED] 34790.040
    
    [GRAPHIC] [TIFF OMITTED] 34790.041
    
    [GRAPHIC] [TIFF OMITTED] 34790.042
    
    [GRAPHIC] [TIFF OMITTED] 34790.043
    
    [GRAPHIC] [TIFF OMITTED] 34790.044
    
    [GRAPHIC] [TIFF OMITTED] 34790.045
    
    [GRAPHIC] [TIFF OMITTED] 34790.046
    
    [GRAPHIC] [TIFF OMITTED] 34790.047
    
    [GRAPHIC] [TIFF OMITTED] 34790.048
    
    [GRAPHIC] [TIFF OMITTED] 34790.049
    
    [GRAPHIC] [TIFF OMITTED] 34790.050
    
    [GRAPHIC] [TIFF OMITTED] 34790.051
    
    [GRAPHIC] [TIFF OMITTED] 34790.052
    
    [GRAPHIC] [TIFF OMITTED] 34790.053
    
    [GRAPHIC] [TIFF OMITTED] 34790.054
    
    [GRAPHIC] [TIFF OMITTED] 34790.055
    
    [GRAPHIC] [TIFF OMITTED] 34790.056
    
    [GRAPHIC] [TIFF OMITTED] 34790.057
    
    [GRAPHIC] [TIFF OMITTED] 34790.058
    
    [GRAPHIC] [TIFF OMITTED] 34790.059
    
    [GRAPHIC] [TIFF OMITTED] 34790.060
    
    [GRAPHIC] [TIFF OMITTED] 34790.061
    
    [GRAPHIC] [TIFF OMITTED] 34790.062
    
    [GRAPHIC] [TIFF OMITTED] 34790.063
    
    [GRAPHIC] [TIFF OMITTED] 34790.064
    
    [GRAPHIC] [TIFF OMITTED] 34790.065
    
    [GRAPHIC] [TIFF OMITTED] 34790.066
    
    [GRAPHIC] [TIFF OMITTED] 34790.067
    
    [GRAPHIC] [TIFF OMITTED] 34790.068
    
    [GRAPHIC] [TIFF OMITTED] 34790.069
    
    [GRAPHIC] [TIFF OMITTED] 34790.070
    
    [GRAPHIC] [TIFF OMITTED] 34790.071
    
    [GRAPHIC] [TIFF OMITTED] 34790.072
    
    [GRAPHIC] [TIFF OMITTED] 34790.073
    
    [GRAPHIC] [TIFF OMITTED] 34790.074
    
    [GRAPHIC] [TIFF OMITTED] 34790.075
    
    [GRAPHIC] [TIFF OMITTED] 34790.076
    
    [GRAPHIC] [TIFF OMITTED] 34790.077
    
    [GRAPHIC] [TIFF OMITTED] 34790.078
    
    [GRAPHIC] [TIFF OMITTED] 34790.079
    
                                    

</pre></body></html>
